<html>
<title> - REVIEWING THE ADMINISTRATION'S GOVERNMENT REORGANIZATION PROPOSAL</title>
<body><pre>[Senate Hearing 115-547]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-547

   REVIEWING THE ADMINISTRATION'S GOVERNMENT REORGANIZATION PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             JULY 18, 2018

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-573 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a>                 




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McAIN, Arizona                  CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
    Courtney J. Allen, Deputy Chief Counsel for Governmental Affairs
               Margaret E. Daum, Minority Staff Director
                  Phylicia L. Woods, Minority Counsel
                 Sarah Garcia, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Lankford.............................................    13
    Senator Heitkamp.............................................    17
    Senator Hassan...............................................    23
    Senator Jones................................................    26
    Senator Peters...............................................    28
    Senator Carper...............................................    32
    Senator Harris...............................................    36
    Senator Hoeven...............................................    38
    Senator Daines...............................................    41
Prepared statements:
    Senator Johnson..............................................    49

                               WITNESSES
                        Wednesday, July 18, 2018

Honorable Margaret Weichert, Deputy Director for Management, 
  Office of Management and Budget
    Testimony....................................................     6
    Prepared statement...........................................    50

                                APPENDIX

OMB Government Reorganization Plan...............................    56
Statements submitted for the Record:
    American Federation of Government Employees, AFL-CIO.........   188
    National Active and Retired Federal Employees Association....   193
    National Treasury Employees Union............................   196
Responses to post-hearing questions for the Record:
    Ms. Weichert.................................................   206

 
   REVIEWING THE ADMINISTRATION'S GOVERNMENT REORGANIZATION PROPOSAL

                              ----------                              


                        WEDNESDAY, JULY 18, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Hoeven, 
Daines, McCaskill, Carper, Heitkamp, Peters, Hassan, Harris, 
and Jones.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order; the title of this hearing, ``Reviewing the 
Administration's Government Reorganization Proposal.'' Glad to 
see good attendance by Members of the Committee. I am really 
glad to see a pretty full audience. It is nice to see a lot of 
people are really interested in reorganizing the government to 
make it more efficient, more effective, and more accountable.
    First of all, I would like to ask that my written statement 
be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    I want to start today's hearing with a question to the 
audience. I ask this to many audiences, just most recently in 
front of the Council of Inspector Generals on Integrity and 
Efficiency (CIGIE).
    A show of hands from the audience. How many people here 
think the Federal Government is efficient and effective?
    Senator McCaskill. Do not be afraid. You can raise your 
hand.
    [Show of hands.]
    Chairman Johnson. OK. We got a couple people.
    Listen, I asked that in front of CIGIE, and Senator 
Heitkamp was there. I do not believe anybody raised their hand, 
and let us face it. It is probably the most knowledgeable group 
of people in terms of the question is it efficient and 
effective.
    Now, I have literally asked that question to tens of 
thousands--that is not an embellishment--tens of thousands, 
primarily Wisconsinites, but Americans as I traveled around, 
and this is for sure the largest percentage. We maybe got five 
or six people raising their hands. Maybe a couple hundred out 
of those tens of thousands have raised their hand.
    I generally do a follow up question: How many think it is 
pretty broken and dysfunctional? The majority of the audience, 
after having laughed at the first question, raised their hand 
who think it is pretty broken and dysfunctional.
    It is obvious that the Federal Government needs a very 
close evaluation and is well overdue for serious reorganization 
and a serious look at how to make it more efficient, more 
effective, and more accountable.
    In my briefing pack, they gave me just some basic stats, 
and I think this pretty well tells it all. We spend $4.2 
trillion a year. That is how large this entity is, and it is an 
incredibly complex entity. People cannot even begin to grapple 
what a trillion dollars is, much less 4.2. We are $21 trillion 
in debt, total debt. It exceeds the size of our economy, a very 
dangerous place for us to be, and according to the 
Congressional Budget Office's (CBO) long-term projections, 
which they present as a percent of gross domestic product 
(GDP), we convert it to dollars for them--at least $100 
trillion more in deficits over the next 30 years tacked onto 
$21 trillion. It is clearly unsustainable.
    The deficit for fiscal year (FY) 2018 is $873 billion, and 
I think this almost says it all. There are 441 Federal 
departments, agencies, and sub-agencies listed in the Federal 
Register--and here is the money line--but there is no 
authoritative list of Federal agencies in existence. We are 
kind of taking a guess at 441. I am taking a risk that I might 
be PolitiFact wrong on that, but it is pretty amazing that 
there is really not even an authoritative list of how many 
agencies there are.
    Now, it is important to point out that we are just at the 
start of this process, although the Executive Order (EO) was 
issued over a year ago. You have solicited comments. 106,000 
came in, and in testimony, Ms. Weichert will talk about that 
this is really a process that it will probably span 3 to 5 
years. We are not talking about this proposal, every last thing 
being enacted, but we have a lot to consider, laid on the 
table, but it is a process. We are only at the start of it, 
which is why Senator Lankford and I have introduced a piece of 
legislation, the Reforming Government Act of 2018.
    Let me just quickly describe what this thing does. It is 
not a scary piece of legislation at all. It is pretty much the 
exact same piece of legislation updated for the circumstances 
today, as Senator Lieberman, when he was Chairman of this 
Committee, and Senator Warner introduced when President Obama 
was talking about reorganization.
    What this bill does, it provides the Administration with 
the authority to submit reorganization plans to Congress for up 
to 2 years after enactment. The last authority that we actually 
enacted into law expired in 1984. It lifts current statutory 
restrictions on reorganization plans by authorizing, one, the 
creation of new executive department or renaming of an existing 
executive department and, two, the consolidation of two or more 
executive departments. That is what reorganization is about. 
Lift the statutory prohibition on that right now makes that 
possible.
    It requires a determination by the Office of Management and 
Budget (OMB) and the reorganization plan will likely result in 
a decrease in the number of agencies or a cost savings. Again, 
those are good things, and it triggers Senate and House Rules 
for expeditious consideration of reorganization plans, and all 
it does is it puts in the same approval process that was part 
of the 1984 bill.
    This bill does not reorganize the government. It just 
offers and produces a process that can possibly do that.
    I hope we can get support. I hope we can get this thing 
signed into law. I hope people take very seriously, I think, a 
very sincere attempt by this Administration to take a look at 
the government and do the reorganization that is necessary to 
make it a little more efficient, a little more effective, a 
little more accountable. I do not see how anybody could really 
be opposed at least to the effort. I can understand maybe 
opposed to the specific proposals, but it is good, worthy 
effort, and I think it is our legislative jurisdiction. I think 
we ought to authorize that effort and support it in every way, 
shape, or form that we can.
    With that, I will turn it over to my Ranking Member, 
Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    I certainly agree that this is an important effort. What my 
questioning will focus on and what I would like us all to 
remember today is that if we are emulating business, there is 
no way this document would be brought into a board room of any 
private company for a mergers and acquisitions (M&A) 
determination. It is woefully short on details.
    Since my time as a State auditor, I have made it my mission 
to fight for a more efficient and effective government, and I 
have repeatedly in my time in the Senate supported 
reorganization, consolidation, and program elimination by the 
Executive Branch.
    I have conducted oversight on how some of our formal 
investment entities like the Overseas Private Investment 
Corporation and the U.S. Trade and Development Agency and 
thought there was an awful lot of duplication there. I have 
repeatedly introduced legislation, which I am proud that the 
Chairman supported, to eliminate another entity I investigated, 
the National Technical Information Service at the Commerce 
Department, a relic of the 1950s that the Internet has 
essentially made obsolete.
    These proposals were works--unfortunately, these took years 
of fact-finding, data-gathering, analysis, and meetings with 
stakeholders. What I learned from that process is that it is 
difficult to reduce or eliminate government programs, even when 
you have bipartisan support and even when you have done the 
work.
    On their face, some of your reorganization proposals--and 
some of that--and that is frankly, in some instances, a pretty 
generous word because many of them are things we could work on 
together. We can agree about the importance of strengthening 
the cybersecurity workforce, improving Federal agencies' 
customer service, and ensuring veterans' cemeteries are well 
maintained.
    To be fair, many of these proposals are not new. Some of 
them are ongoing, and some were the work of previous 
Administrations and Congress.
    On the other hand, some of these ideas are untenable. I 
would put postal privatization in that category. We all 
understand that a business model of privatization for postal 
results in one reality, the same reality that faced rural 
communities when it was time for them to get electricity, the 
same reality that faces rural communities when they need to get 
broadband, and that is, there is no business model that will 
provide the level of profit that that last mile of real estate 
requires.
    If you look at what is going on in rural America right now, 
the hope for rural America is not only a trade policy that 
makes sense, but it is also the ability of rural Americans to 
participate in small business by online participation. That is 
why we spent so much time talking about rural broadband, but if 
you do not have the delivery of the packages, if you do not 
have the delivery in Alaska of food, that is absolutely a big 
step backward for economic vibrancy in our rural communities.
    There is no way a privatization model delivers the same 
level of service to rural America as they currently receive. It 
just does not work by the numbers, and you know who would pick 
up the liabilities? The privatization companies would take all 
the profit out of the urban areas, and guess who would be left 
holding the bag for all the rural areas? It would once again be 
the government. Why do not we just give the postal authority 
the flexibility and the authorities they need to do this in the 
most effective and efficient way possible?
    For some reason, this Administration and the Republican-led 
Congress has been incredibly stubborn about facing that reality 
in the Postal Service.
    I know what privatization means for rural Missouri, and I 
will not go there on postal. I am pretty confident that most of 
my colleagues that have a large swath of rural constituents 
will feel the same way.
    Although we may disagree on the substance of some of these 
proposals--and that is fair with any proposal--I take issue 
about the idea that there is substance. The details we need are 
simply not here. There is no cost-benefit analysis. There is no 
implementation timeline. There are no metrics by which these 
measures would actually show success, and we know how to set 
goals and metrics and come up with plans. In fact, the 
Government Accountability Office (GAO), has come up with a 
whole framework, which you did not follow.
    I am not seeing the facts behind this proposal. In fact, 
what has been frustrating is we have repeatedly asked the 
Office of Management and Budget about the data, about any cost-
benefit analyses that might exist, about the over 100,000 in 
public comments, timeliness and authorities. A simple question, 
tell us what you think you need in terms of legislation. Tell 
us what you think you can do without legislation.
    We are getting stonewalled. There has been an outright 
refusal to answer many of these questions. That is not the way 
to get this started. If you want a willing partner--and I want 
to be one--then you have to give me the information that you 
have, and if we are not getting the information you have, then 
this is not serious. It is just not serious.
    I will work with anyone to find common solutions, and I 
will elevate any good idea, regardless of who proposes it, but 
you have to provide the details. I am going to ask for those 
details, the data, the analyses, and the agency plans behind 
this proposal again after the hearing. That is where we are 
going to reach a stalemate if we cannot begin to openly share 
information.
    I do not know what the strategy is behind stonewalling us. 
That certainly was not the way I took your presentation when 
you visited with a number of us as we began this process, but 
that is the way the agency is treating this in terms of 
requests for information that we have had.
    I am willing to withhold judgment, and hopefully, we can 
begin anew with sharing data. But there is no way that Ron 
Johnson's manufacturing company or any other private sector 
would begin to even consider putting into law this proposal 
without more data. If we are going to try to emulate the 
efficiency of the private sector, we need to do it in every 
regard and not just notional ideas that are thrown out without 
any meat on the bones. We have to get to that meat before we 
can really move forward.
    Thank you, Mr. Chairman.
    Chairman Johnson. I think I mentioned this was the start of 
the process, and from my standpoint, I am looking at these 
things coming before Congress. Legislation says no more than 
three proposals at a time. You will have the backup. I would 
require the backup.
    I understand the deliberative process, but this Committee 
will certainly--and the Congress will certainly--expect the 
type of information to validate whatever proposals are actually 
submitted to Congress on those things. This has far greater 
detail than what the Obama administration presented--which by 
the way, I would have liked to support reorganization of that 
Administration as well.
    This is just barely the start of the process, although 
there has been an awful lot of work. But there is a lot of work 
to be done.
    I will agree from the standpoint that we will need more 
information. I do not think you disagree with that either, Ms. 
Weichert.
    It is the tradition of this Committee to swear in 
witnesses, so if you will stand. Raise your right hand. Do you 
swear the testimony you will give before this Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Ms. Weichert. I do.
    Chairman Johnson. Please be seated.
    First of all, I want to welcome Margaret Weichert, Deputy 
Director for Management, Office of Management and Budget, as 
our witness.
    In my script, I have a brief little description, but it 
does not do you justice. I want to describe really the 
qualifications you bring to this process and to your job and 
thank you for your service.
    You were nominated on September 5, 2017. Our Committee 
approved, sent you on to the Senate on January 8, 2018, and you 
have been on the job since being confirmed on February 14. I am 
pretty impressed with how quickly you embraced this and brought 
us to this starting point.
    A brief history, but one that still probably does not even 
do you justice, Ms. Weichert currently serves as the Deputy 
Director for Management at the Office of Management and Budget. 
Ms. Weichert is an experienced business executive who served as 
a principal at Ernst & Young, LLP, since 2013. In her 25-year 
professional career, Ms. Weichert has also held executive 
leadership positions at Market Platform Dynamics, First Data 
Corporation, Bank of America, and Andersen Consulting focused 
on strategy, innovation, and business process improvement in 
banking and payments technology.
    An innovator and an entrepreneur, Ms. Weichert also co-
founded an Internet company, Achex, Incorporated, and sold that 
company to First Data in 2001. As a result of her innovative 
work in payment technology, Ms. Weichert has been named as an 
inventor on 14 successful U.S. patents.
    An avid supporter of technology innovation in Georgia, Ms. 
Weichert has served since 2010 on the Technology Association of 
Georgia's Fintech Steering Committee. She holds a B.S. of 
Foreign Service, Magna Cum Laude, from Georgetown University; a 
postgraduate diploma in Economics with distinction from the 
University of Sussex; and a Masters of Business Administration 
from the University of California at Berkeley.
    Ms. Weichert also is certified as a Green Belt in Six 
Sigma, Design for Six Sigma.
    You are an overachiever, and I certainly appreciate that 
and I think well qualified for this particular task of trying 
to start reining in and reorganizing parts of Government to 
make it more efficient, effective, and accountable.
    Ms. Weichert, thank you for your testimony and your time 
for coming here before the Committee, and the floor is yours.

    TESTIMONY OF THE HONORABLE MARGARET WEICHERT,\1\ DEPUTY 
    DIRECTOR FOR MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Weichert. Chairman Johnson, Ranking Member McCaskill, 
and Members of the Committee, thank you for having me here 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Weichert appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Healthy organizations are designed to adapt and change to 
customer needs and free market demands. The U.S. Government 
should be no different. Our Founders conceived a durable 
governing framework and Constitution to serve the American 
people. However, our current Federal Government organization 
model has not kept pace with the 21st Century needs.
    Despite dramatic changes in technology, today's Federal 
Government still operates much like it did 50 or 60 years ago. 
Current government infrastructure is not aligned to provide the 
service and flexibility that Americans expect in the Digital 
Age.
    I cringe when I hear how inefficient it is for Americans to 
interact with their government due to layers of organizational 
bureaucracy. This is not how Americans want their government to 
operate.
    Job seekers have to navigate more than 40 workforce 
development programs across 15 agencies, while small businesses 
face overlapping, multi-agency processes every time they engage 
with the Federal Government.
    Food safety has its well-known red tape, and there are 
numerous other examples of how everything from fish in our 
rivers to housing benefits to infrastructure projects are 
subject to counterproductive layers of bureaucracy.
    Most programs were designed with positive intent and are 
funded by supportive taxpayers, but old-fashioned 
organizational complexity creates confusion for citizens. This 
Administration recognizes these challenges, and a March 2017 
Executive Order directed the Office of Management and Budget to 
produce a comprehensive proposal to reform and reorganize the 
government to better meet the needs of the American people. 
This plan seeks to balance the mission, service, and 
stewardship responsibilities of the Executive Branch, while 
reducing inefficiency, risk, and duplication.
    Although it is difficult to cut bureaucracy and red tape, 
it is not impossible. The President's Management Agenda (PMA) 
released in March offers a vision for government change that 
the Reform and Reorganization Plan continues. To that end, OMB 
reviewed reorganization proposals from agencies, academics, 
interest groups, and Federal employees. Over 106,000 public 
comments came from Americans interested in government 
efficiency. OMB shared this feedback with agencies to inform 
their proposals.
    We also reviewed GAO and CBO reports, leading 
organizational design frameworks, think tank recommendations, 
and business journals. Last month's Reform and Reorganization 
Plan reflects synthesis of this input.
    The recommendations include top-down and bottom-up proposal 
for change, and they represent a starting point for public 
dialogue on much needed government transformation. This 
approach addresses difficulties that hampered past proposals by 
creating a holistic, all-of-government, organizational change 
blueprint rather than piecemeal recommendations.
    Given the seriousness of the task and its potential for 
impact to government missions and to our workforce, OMB 
conducted pre-decisional reform plan analysis in phases. The 
first phase was the data collection phase. When OMB collected 
key stakeholder input, seeking the most significant input from 
agencies, early outputs were included in the 2019 Budget.
    The second phase focused on opportunities to reduce 
duplication, fragmentation, and to improve cross-agency 
efficiency. This analysis drew heavily on GAO reports, 
including the GAO High Risk List and duplication reports.
    The final phase incorporated the President's Management 
Agenda priorities identifying organizational opportunities to 
improve mission, service, and stewardship support in the 21st 
Century.
    Transformation at this scale will take time and teamwork to 
implement. Some changes can be achieved directly in Federal 
agencies, while other more complex proposals require 
Presidential or congressional action. Now that the Reform and 
Reorganization Plan has been issued, we are eager to engage 
with Congress on moving forward together. This Committee in 
particular will undoubtedly play a leadership role.
    We have seen similar transformations at the State and local 
levels. Cities like Baltimore, Philadelphia, and Detroit; 
States like Georgia, Arkansas, and North Carolina provide 
insights for rethinking government. We can learn from 
innovative State and local government approaches, including 
reorganization to address the practical realities of delivering 
citizen services in the 21st Century without overburdening 
taxpayers.
    As the U.S. faces the challenge of serving the diverse 
needs of our growing country, commitment to government of the 
people, by the people, and for the people is critical. We must 
ensure that the Executive Branch is well aligned to 21st 
Century realities.
    As we collectively pursue the task of government 
transformation, OMB acknowledges the important role of dialogue 
and public deliberation in determining the trajectory for 
government change.
    I am grateful to be here today for this ongoing dialogue on 
the path forward.
    Thank you again for inviting me here.
    Chairman Johnson. Thank you, Ms. Weichert.
    Normally, I would defer my questioning because I really 
want to reserve the time for the other Members that have shown 
up.
    In this case, I want to make a slight exception. In your 
testimony, you really have not listed kind of a prioritization. 
I have a six-page summary. I know you are talking about 32 
proposals. There are 49 bullet points on this.
    Ms. Weichert. Yes.
    Chairman Johnson. A lot of ideas, a lot based on GAO. Can 
you just for the Committee, maybe to help structure our 
questioning, can you just lay out what you believe are, first 
of all, the top priorities of things that we really want to 
focus on first and what may be most possible, where there might 
be areas of agreement as opposed to obviously, Ranking Members 
talking about where there will be areas of disagreement. But 
can you just kind of talk about those top priorities before I 
turn it over to the Ranking Member?
    Ms. Weichert. Yes. Thank you, Senator.
    I think it is great framing to say that this activity was 
meant to showcase the art of the possible, and so, as noted, 
the proposals are at varying degrees of specificity. The things 
with less specificity are going to need more public dialogue, 
more traditional interactions on the specifics, but the ideas 
that are most prepared for near-term implementation, I would 
start first with background investigations.
    This is an issue I know that this body has thought long and 
hard about. When the National Defense Authorization Act (NDAA) 
in December suggested and required moving 70 percent of that 
capability from the Office of Personnel Management (OPM) to the 
Department of Defense (DOD), that really catalyzed an in-depth 
look at the economics and the efficacy of that entire function, 
which we all know needs a lot of work. The determination of 
that analysis, much of which has taken place in a public 
deliberative process, concluded that both the reality of having 
to move 70 percent and the economics of stranding the remaining 
30 percent would mean that moving the entire background 
investigation made more sense and was less risky. That is the 
first proposal.
    I think the second one, the work on cyber, obviously very 
topical. The proposal outlines some specific work that OMB and 
Department of Homeland Security (DHS) have done that, again, 
has been fairly well shared, and we would be happy to share 
more detail about that. I know this body has done a lot of work 
in thinking about how we can particularly look at our cyber 
workforce. The work to actually do the skills gap assessment 
has already kicked off, so that is a second area.
    There are a number of other proposals. They did not get as 
much sort of noise in the press, but the customer experience 
proposal--there is the proposal for advanced research called 
the Government Effectiveness Advanced Research (GEAR) Center 
that actually would involve the creation of a capability 
outside of government, but with a real focus on government 
issues. That would bring private sector, government, academics, 
and the public together to address key issues in government. 
Those are the ones that I think are top of mind for me.
    There are a range of other really important topics that 
require deep consideration by Congress, and those need to--as 
you all have noted--follow a process that allows appropriate 
deliberation, and so, again, what is in the proposal is meant 
to be a framing-a vision document and the operating model 
component and then the implementation planning component are 
what typically come next. You frame the vision. You look at the 
operating model, the high-level target, and you do the analysis 
on the cost benefit at that point. Then you get into the 
detailed timelines and implementation planning.
    Chairman Johnson. You agree with the Ranking Member. There 
will be a lot more information supplied to Congress as we move 
forward on this.
    Ms. Weichert. Absolutely. The real question and part 
of--and we take many of the comments that we have heard today, 
but also we have seen in the literature. There is a 
bibliography on page 128 of the document that highlights some 
of the analysis we did looking at past reform efforts that 
failed.
    What we actually wanted to do--and my characterization from 
the private sector is a little bit different than what the 
Ranking Member suggested, but what this is is not the detailed 
due diligence. What this is is the prospectus to shareholders. 
It is a high-level articulation of the objectives of the 
reorganization. It is not the cost-benefit analysis. It is not 
all the detailed planning.
    We actually loved the report that GAO released mid-June, 
days before we actually released the plan itself. We think that 
is utterly appropriate to apply to the operating model and 
implementation phases for these activities, and I have shared 
that with my team on that front. But this for the most part on 
the more complex projects was the vision framing to ensure that 
we did not hide in darkness and lose under the name of 
deliberation the potential art of the possible for the bigger 
change.
    Chairman Johnson. OK. Thank you.
    I did not use up quite all my time. Senator McCaskill.
    Senator McCaskill. I understand the point you are making, 
and I get that. But as we move forward, we need to get the 
information that you have gotten that is informing you.
    The Executive Order that was issued on March 13, 2017, 
tasked OMB with developing a comprehensive plan. Shortly 
thereafter, OMB issued guidance to agencies for developing the 
plans. The guidance listed very specific things for agencies to 
consider. One of those things was cost, the cost of continuing 
to operate an agency and the cost of shutting down or merging 
agencies.
    Did the agencies comply with OMB guidance?
    Ms. Weichert. That component of the analysis happened 
before I took over leadership of the work product earlier this 
year, but what I can say is the agencies that submitted plans 
attempted to comply. The ones where the detail was sufficient 
for those plans, they ended up in the 2019 budget.
    What we discovered and undoubtedly is not surprising to the 
members of this body, is the ask in the Executive Order was 
massive and the potential scope unlimited. What we got came in 
at varying levels of specificity, and we had to proceed based 
on what was appropriate to proceed with.
    Senator McCaskill. How many of the agencies complied with 
the guidance and gave you any information on cost of merging 
cost of shutting down, etc? How many of the agencies complied 
with that?
    Ms. Weichert. I cannot give you the specific number, but I 
would be happy to consult with my team at OMB and provide it.
    Senator McCaskill. When you get that number, you can see 
the list of the agencies that have complied and the estimates 
they made on cost?
    Ms. Weichert. Again, the notion of the pre-decisional 
deliberative process, much like in the budget process, follows 
a specific path to ensure that in the Executive Branch, we can 
adequately vet ideas, that we do not become so risk averse 
because we are concerned in the deliberative process.
    Senator McCaskill. You are concerned that some of the 
information that would become public would harm your effort to 
do what you would like to do?
    Ms. Weichert. I am concerned that we need to follow process 
that is----
    Senator McCaskill. Let me just get to the chase here. You 
have listed very specific things for the agencies to consider.
    Ms. Weichert. Yes.
    Senator McCaskill. You are asking Congress to give you the 
authority, maybe sequentially and maybe over years, to 
implement bold changes, but you are going to take the position 
that the information you have from the agencies has to be held 
within the Executive Branch and not shared with the Legislative 
Branch at this point in time. Is that an accurate assessment?
    Ms. Weichert. No, it is not.
    Senator McCaskill. OK. Will you share the information you 
have received from the agencies about the cost of this plan 
with this Committee?
    Ms. Weichert. When the plan is in the post-deliberative 
stage--when we have determined that there is sufficient 
information that it can follow either a normal budgetary 
implication--again, as I said earlier, the plans that had 
sufficient information and impact from a cost-benefit analysis, 
those plans were included in the 2019 budget, and that 
information was shared in the way it is in any budget cycle. 
That is kind of the notion that the vision was the starting 
point, the framing, but the actual execution needs to follow 
the processes that we are all familiar with, whether it is 
administrative action, Presidential action, budgetary action, 
or congressional action.
    Senator McCaskill. If we cannot get what you are getting 
that is informing the proposals you made, how can you expect us 
to fully evaluate those proposals? I do not understand how you 
think that is going to work.
    Ms. Weichert. For things to actually get implemented--we 
have shared the reason why the proposals were considered. We 
have shared the framing of it. For anything to move forward 
into implementation, again, if we go back----
    Senator McCaskill. So you are not recommending an 
implementation of anything at this point in time?
    Ms. Weichert. All of the implementation activities will 
follow the normal course of business, the way it does in 
government. You brought up a great example of how M&A happens. 
The initial discussion in an M&A context happens completely 
behind closed doors. Lots of considerations are discussed, 
debated behind closed doors effectively in an effective body.
    When it is time for implementation, they have to go to more 
of a due diligence process, and then it is published. Because 
of the nature of a public forum and a lot of the legislative 
authorities, we needed to put something out as a framing 
document so we could have the conversation about substance in 
the way that it always happens.
    Senator McCaskill. You are not going to get very far if you 
do not give us the data. I am just telling you. It is not going 
to happen. If you think you are going to be able to come to us 
and make serious proposals about reorganizing government 
without sharing with us the data that you are basing those 
recommendations on, this is a nonstarter.
    I think we have to get clarity on what exactly you are----
    Ms. Weichert. When we have a proposal----
    Senator McCaskill. Two of the things you have actually made 
specific reference to today, I think are well down the line 
because they began during the Obama administration----
    Ms. Weichert. Correct.
    Senator McCaskill [continuing]. Both cyber and customer 
service.
    Ms. Weichert. Yes.
    Senator McCaskill. There is data out there, but for the 
vast majority of this proposal, we have no data. Until we have 
data, it would be highly irresponsible. We are the board of 
directors here, but this is a little different than a private 
company in that this is the public's money.
    Ms. Weichert. Yes. Absolutely agree.
    Senator McCaskill. This is their services. This is not 
about making a profit. This is about making sure that somebody 
down that rural road in Shannon County can start a small 
business and get delivery of their packages on Friday and 
Saturday. This is something that is really important in terms 
of us having all the data.
    If you think you can closely hold this and not share with 
us, then there is going to build up a level of distrust and 
build up a level of why are not they sharing, what is it they 
do not want us to know. I am trying to give you solid, good 
advice.
    I am not your enemy here. I want to help you do this, but I 
cannot go further.
    Ms. Weichert. I appreciate the advice. I would like to just 
share. As the proposals get closer to implementation--again, 
this was a vision of----
    Senator McCaskill. You cannot implement without us.
    Ms. Weichert. Right, but we are not----
    Senator McCaskill. You are saying you are going to make a 
decision on implementation without us?
    Ms. Weichert. No.
    Senator McCaskill. OK.
    Ms. Weichert. What I am actually committing to is as the 
proposals get traction in this type of dialogue about substance 
as opposed to process, we will follow the process that you 
always have in considering legislative proposals. We are not 
there yet. I understand the frustration that we are not there 
yet, but the task that we had was to be big enough. That was 
the expanding part of the task.
    Now for 32 proposals that are not at the same level of 
deliberation or analysis, we cannot give lists that are 
completely uneven in terms of the level of data.
    I agree with you. We cannot make decisions on data if we 
are a mile deep in one place and an inch deep in another place.
    What you have characterized as stonewalling, I would 
characterize as definitive deliberative thought about what is 
it time for now.
    Senator McCaskill. Come when you are ready. When you are 
ready, come to us.
    Ms. Weichert. Absolutely, I will.
    Senator McCaskill. You are clearly not ready.
    Thank you, Mr. Chair.
    Chairman Johnson. I think you are talking about each other.
    I do not see any problem in terms of providing a vision, an 
outline. These things are not fully fleshed out. They are 
really not proposals yet. You can call them a proposal. It is 
kind of a definition. When you are really ready to propose 
something, you are going to have the information. You will 
provide that to us.
    Ms. Weichert. Absolutely.
    Chairman Johnson. But developing the proposal to a position 
or a point where you can actually make the proposal, there is a 
deliberative process in there.
    Ms. Weichert. Right.
    Chairman Johnson. You have a very unequal level of detail 
from different agencies. I think that is pretty understandable.
    Ms. Weichert. Right.
    Chairman Johnson. But, what you are committing to us is 
once you have done that deliberative process, you have brought 
one of these ideas, one of these visions to the point where you 
literally can make it a proposal, you will have the data 
backup, and you will share that with us.
    Ms. Weichert. Correct.
    Chairman Johnson. That is just obvious, right? Part of our 
piece of legislation will actually require the fact that we are 
going to have to see that there is going to be some reduction 
number of agencies and cost reduction.
    There will be information provided once the proposal is at 
a State. Maybe we have to come up with different terminology. 
These are bullet points of a vision, and when the proposal is 
finally made, they will have the information. You are not going 
to be hiding anything from us. You are going to making full 
disclosure because we will all demand it, correct?
    Ms. Weichert. Correct. Absolutely.
    Chairman Johnson. OK. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Mr. Chairman, thank you.
    Let me tell you how I see it. When I go through the list, I 
go back to business perspective in the past and remember a very 
old term, the big, hairy, audacious goals (BHAG), and that is 
really what I see this, as the list of the big, hairy, 
audacious goals. Without any details under them, just to say 
this is a vision of have we considered and would we consider to 
be able to look at it because some of these things obviously 
will take years----
    Ms. Weichert. Correct.
    Senator Lankford [continuing]. To be able to think through 
and to be able to gather data and to be able to go through.
    Can I ask just a specific questions on this? How many of 
these big, hairy, audacious goals that you are laying out there 
and different vision ideas are coming from GAO High Risk List 
or Inspector General (IG) reports or from previous 
Administrations to say this is something that is out there that 
has been considered for a while?
    I know a lot of these things were bottom up from different 
agencies or different individuals that work in agencies say 
this is something we should consider. How many of them are 
specifically GAO, IG, or previous Administration?
    Ms. Weichert. There are about 20 of the 32 proposals that 
have input or a significant fact base derived from the GAO 
reports.
    When I talk about the highest level--and I talked to Gene 
Dodaro about the proposals--we agreed it is probably about 40 
percent of the proposals are effectively, if not identical, 
fairly close to what has been recommended by GAO.
    Senator Lankford. OK. What about from previous 
Administrations, however far back as you want to go?
    Ms. Weichert. I could look at the exact numbers. Many of 
them, I would say. Probably 10 to 12 include items from 
previous Administrations.
    Senator Lankford. All right. Jeh Johnson spent a lot of 
time with this Committee going through DHS and the 
restructuring and the requests and brought multiple requests to 
us on what to be able to do to be able to help some of the 
process in that particular instance. We are familiar with 
dealing with those. We have had a lot of debate on what that 
would look like, and we will look forward to continuing to be 
able to get information as these continue to get fleshed out in 
the future.
    Let me ask a question that Senator McCaskill had asked as 
well. How do we get a good balance between what the 
Administration already has authority to do and what the 
Administration does not have authority? It is obviously going 
to be a longer deliberative process.
    Ms. Weichert. Right.
    Senator Lankford. You have mentioned already security 
clearances as one of those.
    Ms. Weichert. Right. Our estimate is there are about 10 to 
12 proposals that do not require legislative activity in 
addition to some of the agency-specific proposals that were 
included in the 2019 budget. Things like the customer 
experience idea that I mentioned, things like what we are doing 
in cyber workforce, but even that one, I think there could be 
additive areas of input from Congress.
    On even some of the things we could do ourselves, that 
might be part of a broader proposal.
    Senator Lankford. OK. That is helpful. We will try to work 
through that process together, but that is a clear line for us 
that we have to be able to know what is our part, what is this 
Administration's part, and what they are already taking on.
    Let me bring up something else this Committee has spent a 
lot of time talking about, and it is real property.
    Ms. Weichert. Yes.
    Senator Lankford. You addressed this as one of the ideas in 
trying to be able to resolve this. This is one of the things we 
have started looking at with how the General Services 
Administration (GSA) disposes of properties that are either 
underutilized or underutilized property, but also how we are 
doing leasing or buying.
    Ms. Weichert. Yes.
    Senator Lankford. Recently, I was going through some 
reports and looked at the requests for the Department of 
Transportation (DOT) Headquarters here in Washington, DC. They 
are requesting to be able to buy the facility. Well, that is a 
great idea. It is the headquarters. We will probably have the 
Department of Transportation for a very long time. We should 
probably own the facility.
    The problem is we have been leasing that facility for 15 
years----
    Ms. Weichert. Yes.
    Senator Lankford [continuing]. At an approximate cost of 
$750 million to lease it for 15 years.
    Now we are being offered to buy the facility for $750 
million. We are paying for the building twice.
    Ms. Weichert. Right.
    Senator Lankford. The first 15 years, there is very little 
maintenance of the building.
    Ms. Weichert. Right.
    Senator Lankford. For the owner of the building to lease it 
to us, it is no skin off their nose because air conditioners 
are going to work, all those kind of things. That is not an 
issue. Now it will be, and we are going to own it then. It was 
a terrible idea 15 years ago.
    Trying to be able to fix how we are disposing of property, 
when we are buying and leasing property, this is a very big 
issue to this Committee. Senator Carper spent a lot of time on 
this issue. What are some of the proposals that you are already 
looking at for that area?
    Ms. Weichert. I think it is a great idea. One of the very 
specific things that gets to the heart of this idea is the 
Federal Capital Revolving Fund.
    Back in business school, there is a very classic financed 
truism when you compare a lease by decision. Usually, the only 
rational economic reason for a lease decision is if there is a 
tax benefit to that decision, and obviously, government does 
not have a tax benefit for that decision.
    The other reality could be a cash-flow consideration and 
how the actual money gets allocated, and very often some of our 
leasing decisions are made because of the nature of the 
appropriations process. What is in the proposal actually looks 
at a Federal capital revolving fund that would essentially free 
us up to make more rational decisions about a lease-buy 
decision if we really think the asset would be valuable for us 
in the long term.
    Senator Lankford. One of the things that you looked at was 
a territorial issue of who runs this space and who has this 
lane, whether that be in small business lending, small business 
programs, which are scattered all over the Federal Government--
--
    Ms. Weichert. Right.
    Senator Lankford [continuing]. Whether that be in veterans' 
cemeteries----
    Ms. Weichert. Right.
    Senator Lankford [continuing]. Which are also scattered all 
over multiple agencies, whether that would be in other projects 
and other grant-making, which again is scattered everywhere. 
How did you make the determination to say there is a wide 
variety of entities doing basically the same thing? We need to 
be able to consolidate, or do we need to be able to streamline 
that within the agencies?
    Ms. Weichert. Yes. I think there are a number of things, 
again, in the proposal that speak to how do we leverage data to 
really be much more thoughtful about how we are making 
decisions. That is very much something in the private sector, 
and so relocation analytics and being more thoughtful about 
that are critical components of the proposal.
    A range of smarter leasing activities that will allow us to 
make improvements to how we make decision about our leasing 
decisions, and then the number of process improvements included 
build on the Federal Assets Sale Transfer Act (FASTA) work that 
has already been put in place.
    I think there are a range of ideas that are fairly tangible 
and designed to provide incentives for agencies to do the right 
thing, that perhaps they do not have those incentives today, 
and then to provide data to make it easier for them to do that.
    Senator Lankford. OK. If I could say this, Mr. Chairman, as 
well, Senator Heitkamp and I are in a hearing on the Office of 
Personnel Management, coming up very soon. There are seven 
areas that OPM has responsibility for. Five of those, you are 
recommending transferring out. The other two is left undefined, 
and we do not know what that is, if it stays there, if there is 
a future plan for that as well. But that is an area that we are 
going to continue to be able to focus in on.
    Obviously, there is lots of issues with OPM----
    Ms. Weichert. Yes.
    Senator Lankford [continuing]. That are historic issues 
there that absolutely affect our Federal retiring workforce 
dramatically, and so we are going to continue on with ongoing 
hearings to be able to drill down a little bit more in that 
particular area.
    Ms. Weichert. I look forward to that because it is 
critical.
    Senator Lankford. Thank you, Mr. Chairman.
    Chairman Johnson. Let me get a little clarity here. You 
said there were 10 to 12 of your proposals that do not need any 
kind of legislative authority. Does that include the 
authorizing language that Senator Lankford and I are proposing 
here, the Reform Government Act?
    Ms. Weichert. Those would be before that language.
    Chairman Johnson. OK. So 10 to 12 of these things, we can 
expect the Administration to move forward with?
    Ms. Weichert. That is our hope. We are using the remaining 
time this summer to really go through the analysis and 
clearance process about what we would do there, purely 
administratively. Some things may be done via executive action.
    Chairman Johnson. OK.
    Ms. Weichert. There will be obvious communications about 
that as it moves forward.
    Chairman Johnson. Using your current authorities, following 
the process the way----
    Ms. Weichert. Correct.
    Chairman Johnson [continuing]. Previous Congresses laid to 
out for you?
    Ms. Weichert. Correct.
    Chairman Johnson. OK.
    Senator McCaskill. Do we know which ones?
    Ms. Weichert. We are working on that as we speak.
    Senator McCaskill. You just said 10 to 12. Which 10 to 12?
    Ms. Weichert. Correct. We are prioritizing and determining 
which of those would move forward by the end of the summer.
    Senator McCaskill. You know the 10 to 12, but you will not 
tell us today?
    Ms. Weichert. We have not cleared which of those would be 
move forward----
    Chairman Johnson. She is ball-parking.
    Ms. Weichert [continuing]. Because we are doing pre-
decisional deliberative analysis.
    Chairman Johnson. Yes. That is perfectly appropriate. There 
is nothing wrong with that. You are giving us some sort of 
sense, and you will inform us when you have made those 
decisions.
    Ms. Weichert. Right. I did share a few of them.
    Chairman Johnson. Again, this is the process, and we are at 
the start of it.
    Ms. Weichert. Right. Yes.
    Chairman Johnson. OK. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. First impressions are everything, and 
when you release that document, I think it is fair for us to 
assume that there was data beyond that document, that there was 
analysis behind that document, and that we should have access 
to that analysis as you work through these things. You cannot 
just plop these in, in the budget process, and expect us all to 
say, ``Brilliant. Great idea.''
    If you really want this to work, as Senator McCaskill has 
said, you have to form a greater partnerships with us, 
especially when we have been looking at this. We are the 
Committee that is most committed to making this happen.
    I am going to give you an example, the postal issues. Right 
after you guys came out, I met with Congressman Meadows and the 
Postal Task Force that the President has put together. Did you 
consult the President's Postal Task Force? Did you consult the 
Postal Service? What were their recommendations as you move 
forward with a recommendation for privatization, which has 
created a great deal of angst now that we have these rural 
communities who are very concerned? They have already lost 
service standards. Now we are suggesting we are going to 
privatize where we know the last mile is not an easy mile to 
cover.
    My point is, did you consult the task force? Did you 
consult the Postal Service? What were their recommendations 
that came to you that led you to conclude that we should 
privatize the post office?
    Ms. Weichert. I appreciate that question, and it is 
absolutely something critical and that we absolutely are 
interested in a sustainable economic path forward that includes 
university service and provides a fair----
    Senator Heitkamp. No, you are not really answering my 
question.
    Ms. Weichert. I am trying to get there.
    Senator Heitkamp. Yes or no. Did you consult the 
President's task force on postal issues?
    Ms. Weichert. The work that we did preceded the creation of 
the task force. So there has been communication between the 
bodies, and the same folks that are involved in this proposal 
also are participating in the work of the task force.
    Senator Heitkamp. OK. Did the U.S. Department of 
Agriculture (USDA) suggest that they move food stamps out of 
USDA and over to the Department of Health and Human Services 
(HHS)?
    Ms. Weichert. I cannot comment on the specifics of the 
origins of that particular proposal.
    Senator Heitkamp. Imagine that you are on this side of the 
dais and you are responsible for implementing this, and like 
Senator McCaskill has said, we want to help you, but this is 
the answer we get: ``We release this document. It makes us look 
like we are innovators; we are reformers. But, oh, by the way, 
do not ask the question about whether USDA had this 
recommendation or HHS or if that was just something somebody 
invented over at OMB.''
    Senator McCaskill. Or Heritage.
    Senator Heitkamp. Yes. I am not going to get into that.
    But I will tell you that this will not work unless we have 
complete partnership, and it will not work with an idea that 
down the line, we will see the source documents. You have 
released a report with recommendations that will affect service 
delivery to our constituents, and we are interested in 
streamlining, but we are not getting the kind of background 
information that we need to support you.
    Maybe you are right. Maybe these are things we ought to do, 
but this idea that later on we will all get to see the data and 
the documents, why release this without data and documents? Why 
not release something that has the kind of gravitas?
    You used mergers and acquisitions. That is like one side of 
a merger and acquisition releasing the report to sway the 
public one way or the other without anyone having an 
opportunity to hear the other side of it, right?
    Ms. Weichert. Typically, in M&A, most of the deliberations 
are not public. In this environment, we need to have more 
public deliberation about the bigger ideas.
    What I would say is there is a bibliography on page 128 
that shares a lot of the impetus for the top-down proposals, 
and duplication and overlap as well as mission, service, and 
stewardship were the critical drivers.
    What I can say about the Supplemental Nutrition Assistance 
Program (SNAP) proposal is the origins of SNAP in USDA had to 
do with the notion of originally it being food----
    Senator Heitkamp. No, I know. I know why SNAP is over at 
USDA. I know why the food bill----
    Ms. Weichert. Right. What I was saying----
    Senator Heitkamp [continuing]. Is structured the way it is.
    Ms. Weichert [continuing]. The idea of moving it came from 
the notion that how the electronic benefit is delivered today 
electronically, not in commodity food form, at the States and 
local levels, it is delivered together with other forms of aid 
like the Temporary Assistance for Needy Families (TANF).
    Senator Heitkamp. I understand. I am not opposed 
necessarily to that happening, but it is a true example of 
where we do not have the analysis behind it that would give us 
the ability to say yes or no.
    I do not mean to browbeat you, but this sense that you can 
hide all this data--and that may be unfair, but that you can 
hide all this data until you spring a proposal into a budget 
proposal and then we are going to have time to analyze it, it 
is not going to work. You are not going to be successful doing 
that.
    The best way to be successful is to give us the source 
data. Let us take a look at it. If this is not a political 
document, then let us make sure that it is not a political 
document by having transparency, and that is one of the 
problems that we have here, is that we need transparency. 
Clearly, on the postal stuff, you have raised a lot of concern 
in my State with the proposal of privatizing the Post Office. 
You have bitten off a huge chunk that will lead to weighing you 
down rather than working with people to listen to the various 
proposals.
    Privatizing, your example on the Post Office does nothing 
to get us to solvency. It does nothing to solve the problems of 
the Post Office. We would love to have a partner.
    I met with the Treasury folks. They seem to be moving in 
the right direction, I felt a great deal of confidence with the 
work that is being done by the task force at this point. We 
will have a chance to deliberate.
    But when there is an overarching kind of, ``this is the 
plan,'' it really dilutes, I think, the efforts that we have 
been taking, and the Post Office is a great example on that.
    Thank you, Mr. Chairman.
    Chairman Johnson. I often describe this Committee as 
nonpartisan, not even bipartisan. Nonpartisan. I just have to 
say it is disappointing.
    You have put the Administration in a no-win situation here. 
It is a lose-lose. They are coming before us with a proposal 
that has not been all fleshed out. If they were not doing this 
and if they got all the proposals fleshed out, had all the 
data, and it was going to take more months, then there would be 
the complaints, ``Well, how come you were not consulting with 
us?''
    Again, this is the start of the process. Ms. Weichert has 
come here beginning that consultation with us, she does not 
have all the data.
    You talk about source data. There is a deliberative process 
here. I have no doubt I will want to see the information. If 
there is somebody who is data driven on this Committee, it is 
me.
    I have been doing a lot of work on postal, and I absolutely 
am going to require data to determine what course of action we 
need to take on any of these proposals.
    I guess I am just cutting the Administration some slack 
here from the standpoint of they are trying to consult with us, 
lay this thing out, so we can start looking at this. I will be 
demanding the information required to move forward on any of 
these proposals.
    Senator McCaskill. Listen, Mr. Chairman, I get what you are 
saying, and I do think this Committee is not a partisan 
committee.
    I think there are a lot of people on here--and I think that 
we have records to show--that we have spent an awful lot of 
time trying to get to the efficiency and the effectiveness of 
government and doing aggressive oversight about duplication and 
waste, all of those things.
    But you cannot expect us to sit here at a hearing and say, 
``Gosh, this is a great document.'' You have to expect us to 
ask where it came from. You have to expect us to ask basic 
questions about what underlies these recommendations. Where did 
they come from? What are they based upon?
    Did you expect this hearing to be ``Gosh, this is really 
great. Thanks''? That is not what this hearing is.
    Chairman Johnson. No.
    Senator McCaskill. This hearing is about fleshing out on 
what basis did these recommendations come about, and the 
essential component of that is where did they come from, what 
data are they based on.
    To act as if us asking for data is a partisan exercise is 
terribly unfair.
    Chairman Johnson. No.
    Senator McCaskill. She should expect that these are the 
questions that are going to be asked. She should expect that we 
are going to want to know whether it came from Heritage or 
whether it came from GAO, and we know a lot of these came from 
Heritage. They gave us our Supreme Court nominees. They now are 
giving us government proposals.
    We have a right to know where these proposals came from. 
Did the USDA recommend this? Was there a recommendation from 
Postal? Was there a recommendation from the Department of 
Defense as it relates to the U.S. Army Corps of Engineers 
(USACE)? These are all reasonable questions to be asked.
    Chairman Johnson. At the appropriate time.
    Senator McCaskill. And that does not turn us--but what is 
this hearing for?
    Chairman Johnson. This is the first step in the 
consultative process for us to understand the scope.
    Senator McCaskill. What questions should we be asking?
    Chairman Johnson. Those are fine, but the answers, you do 
not have to expect them today.
    Senator McCaskill. OK.
    Chairman Johnson. They will come when the proposals are 
actually being made.
    Senator McCaskill. OK. So then I would just----
    Chairman Johnson. This is the vision statement.
    Senator McCaskill. For economy in the future, if this is 
just about us asking questions and not getting answers, then 
why do not we do it by writing and then have a hearing when she 
can provide the answers? Because I do not see the purpose of a 
hearing if us asking reasonable questions are going to be 
couched as a partisan activity. It is just not fair to us.
    I think if the roles are reversed, you would be doing the 
exact same thing. In fact, I am kind of surprised you are not 
doing more of it today because typically you are the one that 
says if government wants to move the needle, there needs to be 
data.
    This is not partisan. I want to work with you. I want to 
make our government more efficient, but I cannot--and if the 
idea 
is--first, she said 10 to 12 are going to be done by summer. 
Are we going to have another hearing before they are done? Are 
we going to get answers to these questions that are going to be 
done administratively? Are we going to have any data about what 
they are doing administratively, or are we just ceding the fact 
that the Executive Branch has the right to do it?
    Maybe we want to disagree over whether they have the right 
to do it. That is why it would be helpful to know what are the 
10 to 12 that are in consideration.
    How about this? How about them going into the Budget 
Proposal? Are we going to have a hearing before they go into a 
Budget Proposal so that we can get at the underlying data? We 
are never going to have a chance in this Committee to get at 
the underlying data in a Budget Proposal because that will be 
the Budget Committee.
    If this is the oversight committee for government and if 
there is a massive plan to reorganize government, I guarantee 
you we have the right to ask these questions, and I believe 
that it is fair for those answers to come as soon as these 
proposals are made. We ought to be able to at least get basics 
like how many agencies gave you cost benefit. Why does that 
have to be a secret? What is the purpose of that?
    Chairman Johnson. First of all, I do not believe it is not, 
and I actually broke form. I asked questions, and I laid out 
what are the top priorities. Ms. Weichert laid out top 
priorities so we can ask follow up questions and we can follow 
that process through.
    I think the questions will be answered. I will demand that 
they are answered at the right time. This is just the start of 
the process. It is the start.
    If the Administration wanted to come before us, had they 
not laid out this vision, then we would be complaining about 
the fact that you are dropping this on us 4 months without 
consulting with us. This is the beginning of the consultation 
process, and I think it is totally appropriate. I do not expect 
all these detailed answers to be answered today, but I will 
expect them. And I would imagine the Administration will be 
willing to answer those in detail as each proposal is actually 
being made, when they have the data, past the deliberative 
process. Once they finally have the data there to make the 
proposal, then I will expect full disclosure, OK? That is all I 
am saying.
    Senator McCaskill. Will we get that----
    Chairman Johnson. But we can----
    Senator McCaskill. Will we get that before the 
Administration makes these changes of 10 to 12 that you said 
you would make by the end of the summer? Will we get the data 
on those changes?
    Ms. Weichert. All of the proposals that move by 
administrative action would follow the standard process for 
those types of actions.
    Senator McCaskill. That did not answer the question. Will 
we get the data underlying those decisions before you make 
those decisions?
    Ms. Weichert. My challenge today--making blanket statements 
about lists of objects that are not alike--is difficult. If we 
talk about, how are we moving forward on cyber, there are 
elements of guidance that we are moving forward on. There are 
elements of other administrative Presidential action that we 
are moving forward on.
    My big challenge--and I understand the energy in the room. 
I really do because I do not know the last time a proposal had 
32 sort of even medium-size scary ideas in them, let alone the 
smaller ones that are kind of at the back. But I cannot do 
blanket statements around lists because they are not like 
objects.
    What I can commit to is that we are trying to be open and 
transparent at the appropriate time, but we need to make sure 
that to the extent we need to get feedback before we finalize 
what the operating model might be, so we are really well 
positioned to frame it and get the right cost-benefit analysis 
data--because, for example, there are proposals. Privatization 
of the Postal Service, that is an example where it is a framing 
idea. It could have a bunch of implementation hurdles. The 
notion of universal service that you raise is absolutely 
critical to the economy, not just of rural America, but all of 
America.
    To the extent we cannot thread the needle around this big 
idea, that frankly the largest orientation for that idea is 
precedent in other countries and a top-down analysis of how 
other countries have done it. Other countries are not the 
United States. They may not have the geographic dispersion that 
we have.
    What is here, the big, hairy, audacious goal that Senator 
Lankford mentioned, is to frame the conversation. I am 
absolutely prepared to have conversations about what is wrong 
with the idea here, but the main thing that this document was 
meant to do was to say this is the nature of the problem we are 
trying to solve, and here is not the only proposal, not the 
definitive proposal, but a proposal for how we solve it. That 
is the vision piece.
    The operating model piece is the next piece where we say, 
``OK. Here is really where we are going to lay out the data for 
the piece parts,'' and that is the place where I would expect 
we would have a whole lot more data.
    Again, what GAO laid out in the document that responded to 
your inquiry, I think is a fantastic framework that lays out 
not only answering the key questions that you all rightly have, 
but also how you measure success against that over time.
    Maybe the last philosophical point I will make is--I have 
been through probably 40 reorganizations in the private sector, 
and one of the things that reorganization in the private sector 
does is bring attention to problems. It is rare--Bank of 
America, I think is a great example, reorganizing constantly. 
It creates anxiety. The more you do it, the more you get 
comfortable at least with the process.
    We have not really done it in government in so long, but 
simple process of asking these reorganization questions shines 
a light on these areas and very often leads to action 
organically on the ground that starts solving those problems.
    I would anticipate even on some of the things that feel in 
the pit of people's stomach like this is just scary and we do 
not like it--I am willing to bet that is going to motivate 
action in the workforce, in management, and across this body 
and elsewhere to really say, ``OK. If we do not want to 
reorganize, how might we address that same problem?'' I think 
there is a lot of examples, even when we looked in the 
deliberative process, of things that you might make a top-down 
recommendation about moving this thing over here because they 
sound alike, where the agencies themselves recognize that and 
created a joint task force or operating activities that 
eliminated duplication.
    The biggest motivating factor when I got involved in this 
activity, sort of early January, was to say how do we actually 
make change happen, not how do we deliver a report, but how do 
we actually ask the tough questions that have not gotten 
answers, have not gotten traction, despite the good efforts of 
this body and others, like how do we shock the system so that 
we really make change happen?
    I absolutely stipulate that you are doing your job by 
asking me these questions. I am not offended. I have to follow 
what I believe is the process that can actually be digested.
    I brought an enormous menu. I did not have all the 
ingredients memorized or even in the report. I would say the 
bibliography is a good place to get a sense of the framing of 
this. Contrary to what makes nice headlines, the framing of 
this is not political. It is about making government operations 
work and learning from leading private-sector practices.
    Sorry for the speech.
    Chairman Johnson. The way you effect changes, you think 
big. You think outside the box. You start the conversation. You 
start the process. That is what this is. This is a broad range 
of proposals. Some can be done within the agencies. Maybe you 
should have left those off the list, but again, just like a GAO 
report, there are some things the agencies can do themselves, 
some things we ask Gene Dodaro, ``Is there legislation 
required?'' But we are basically at that stage.
    All I am asking is let us be supportive here. Let us 
understand this is the start of the process, and I will assure 
Committee Members, particularly where it requires legislation, 
I will be right there demanding the backup, the information, 
the data. I am driven by that.
    I think we have a director here who is completely qualified 
to go through this process.
    Senator Hassan, sorry we stomped on your order here, but 
now it is your turn.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Mr. Chair and Ranking 
Member McCaskill, for having this hearing, and thank you, Ms. 
Weichert, for being here today and for your work.
    I certainly appreciate the meeting we had to discuss this 
proposal a few weeks ago. It was a bipartisan meeting with 
Members of this Committee. I thought it was productive, but as 
you are hearing today, an early abstract of a plan causes 
concern. We all share the priority of working toward a more 
efficient and effective Federal Government, and there are 
specific goals in this plan that I have supported for years, 
common-sense ideas such as saving taxpayers money by unloading 
unused Federal property.
    The devil is always in the details, as we discussed, and as 
I noted several weeks ago in our meeting, there are parts of 
this plan that I find very concerning.
    But I want to take a step back because of the discussion we 
have just had. I was happy to see in the introduction of the 
plan on page 3 that you paraphrased the Preamble to the United 
States Constitution about what the job of government is, and 
one of the things you are hearing today is that the job of the 
U.S. Government is not exactly the same as the job of a 
business in the private sector. We are supposed to establish 
justice, ensure domestic tranquility, provide for the common 
defense, promote the general welfare, and secure the blessings 
of liberty. Quite a tall order, and it is what makes us who we 
are as a country.
    When you talk about anxiety of the workforce when they see 
a plan like this, I think about the anxiety of the American 
public because they depend on us to deliver in all sorts of 
ways. They depend on us to deliver after a natural disaster. 
Many Americans depend on the Federal Government of the United 
States to support and protect their civil rights. It does not 
get more basic in a democracy than that.
    I think it is really important that we take this from the 
abstract and remember how this actually impacts people because 
that is how we have to evaluate whether an idea is a good one, 
not whether it sounds good or whether we would win in a 
philosophy debate, but whether in fact it is deliverable, given 
our mission as a country.
    I have a couple of questions about some specifics. One of 
them goes to a concern that I raised in our meeting, but one of 
the goals that I find particularly important in this proposal 
is solving the Federal cyber workforce shortage.
    I have been pressing the Office of Personnel Management for 
months to get basic information, such as how many Federal 
workers we have doing cybersecurity in each agency, but as far 
as I can tell, the information does not yet exist. That speaks 
to the magnitude of the problem we face in ensuring that we 
have the cybersecurity personnel we need to protect the Federal 
Government from hackers.
    As we have reiterated just in the past week, the Russian 
government was fully willing and able to attack our election 
infrastructure in 2016 and hack into a State election website, 
stealing sensitive information about 500,000 American voters.
    As my Republican colleague, Senator Lankford, correctly 
noted, that was a Russian attack on our democracy. If Russia is 
willing and able to attack our election infrastructure, they 
and others will absolutely attack our Federal agencies, and we 
need to ensure that we have a cybersecurity workforce in place 
to prevent and mitigate those attacks.
    The idea outlined in this plan would create a unified cyber 
workforce across the Federal Government. It is an ambitious 
proposal in part because it would impact so many agencies.
    I am going to ask you to be brief because I have a couple 
other questions. If you were to move forward with this proposal 
or something like it, how would you work with each of the 
impacted agencies to garner appropriate feedback and buy-in 
before such a proposal was finalized and implemented?
    Ms. Weichert. Thank you for what you shared, and I share 
your concerns on this.
    As we have outlined in the proposal, the first thing is to 
get that talent gap assessment and an actual inventory, and we 
have kicked off the process to gather that feedback. That 
process has started. We do not have the results yet back in.
    In terms of another information component, we need more of 
our unfilled slots around cyber, so not only where do we have 
gaps, but where do we actually have outstanding billets that we 
have not filled? Then working largely through guidance, both 
from OMB and from OPM to address the specific areas, I do think 
there is a number of interesting proposals that I have seen 
both here and in the House that are looking at other things we 
might do. But our initial start is with the authorities we 
already have.
    Senator Hassan. Thank you.
    That is one of the ideas where I think your proposal has 
some promise.
    Let me share an area that is one of the most concerning 
ideas in the proposal, which is merging the Department of 
Education and Labor. There are opportunities to better 
coordinate workforce training across agencies to be sure, but 
fundamentally, these two Departments have the responsibility to 
protect rights in two vastly different settings, and they carry 
out very different functions.
    Under this proposal, a single enforcement agency will 
combine a number--I think it is up to eight--of currently 
separate divisions, including the Occupational Safety and 
Health Administration (OSHA), and the Department of Education's 
Office for Civil Rights.
    The Occupational Safety and Health Administration was 
created in 1970 to combat the rising injury and death rates in 
the workplace.
    The mission of the Office for Civil Rights is to ensure 
equal access to education and to promote educational excellence 
throughout the Nation through vigorous enforcement of civil 
rights, making sure every child has access.
    These entities, the offices came about because we 
discovered over the course of our history that unless there 
were champions in the Federal Government to protect workers, to 
protect kids, for instance, with special needs, those 
protections did not happen. That is why we are here. These did 
not come out of thin air. They came out because workers were 
dying on the job. Kids who had disabilities could not go to 
school.
    This Administration has a track record of chipping away at 
workers' protections, including blocking OSHA rules and 
limiting public information about important action taken 
against bad actor employers.
    The Administration also has scaled back on the enforcement 
of important civil rights protections, such as rescinding the 
2011 Title IX guidance and dismissing hundreds of civil rights 
complaints in schools because they were deemed to be part of a 
so-called serial filing. When you are combining these missions 
and many others, students and workers will presumably be left 
with no champion to carry out important protections under 
Federal laws, and that creates real concern.
    A single senior official tasked to oversee this division 
will be forced to choose what protections are more important 
when allocating limited resources.
    This reorganization comes off as another attempt by this 
Administration to undermine workers' rights, students' rights, 
and civil rights.
    Let me just start with this. Would you agree that the 
Department of Education's Office of Civil Rights has a vastly 
different mission than the Office of Safety and Health 
Administration?
    Ms. Weichert. Absolutely.
    Senator Hassan. How will you ensure that important 
protections under Federal law do not fall to the wayside in the 
name of government efficiency?
    Ms. Weichert. I think this would be a very appropriate area 
for a collaborative set of dialogues with Congress and the 
Executive Branch because, as you can see in the proposal, the 
main drivers were mission elements about workforce development 
and kind of lifetime learning.
    The proposal itself did not envision touching compliance 
from a mission standpoint. I think there might be some elements 
of service. How do we make it easier for people to navigate? 
Because, as you well know, it is very difficult for people who 
are advocating for special education or whether it is 
workforce-or education-related activities to interact with 
government. But I think this is exactly the kind of area where 
we need to have that collaborative dialogue about ensuring all 
of the functions of that mission are protected.
    Senator Hassan. Thank you, and I look forward to working 
further with you.
    Thank you for letting me go over, Mr. Chair.
    Chairman Johnson. Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Thank you, Mr. Chairman and Ranking Member, 
for holding this hearing.
    Ms. Weichert, thank you for being here.
    I apologize that I had to leave earlier to do a floor 
speech with Senator Alexander.
    I know I have missed a lot, obviously. One of the things--
and I am about to ask something that I came in on and heard you 
make a couple of statements about. If I am taking this out of 
context, please correct me. But when I walked in as you were 
answering, I think, Senator McCaskill's questions, you made a 
comment about one of the missions here is how do we make 
change, how do we shock the system to make change happen, and 
my concern with that when I heard that was--first of all, this 
Administration is making a lot of shocks to the system, and 
second of all, it almost appears that this mission was to find 
the change to make change happen, not to see what changes might 
need to happen.
    Now, am I reading that wrong? Is part of your mission to 
simply go in and make the changes and to shock the system to 
make the changes, or are you studying what is the appropriate 
way--should things be changed at all? Everybody wants to be 
more efficient, but I am concerned that we have an 
Administration here that went into this with a bunch of 
stakeholders in the private sector who said, ``We want this.'' 
They are after you to make the changes, and your job is to 
implement the changes that those people wanted.
    Tell me I am wrong. I hope I am wrong.
    Ms. Weichert. Yes. I do not think--perhaps coming into a 
word like ``shock the system'' sent the wrong message, but the 
point I was trying to make earlier was the change we need in 
the 21st Century to our organization structure is big, right? 
Incremental change will not get us from a system that is 
fundamentally rooted in the mission and the organization 
structures that came out of World War II and that mission.
    Our mission today is much more complex. It is much more 
technologically driven, and from my perspective, what has been 
happening and really why I am here is that change is needed.
    If you look at actually what informs the proposal, it is 
heavily informed, as I discussed with Senator Lankford, by 
stacks of GAO reports about needed areas for improvement around 
duplication, fragmentation, and overlap, areas where the reason 
there are pictures of human beings in this report is not 
marketing. It is about the mission, the service to Americans. 
It is about what Senator Johnson mentioned that average 
Americans feel this bureaucracy that is misaligned to the 21st 
Century.
    And so, the words ``shock to the system,'' I understand why 
they might get taken out of context, but the notion is 
incremental change is not enough. I have a 17-year-old and a 
14-year-old. I would like them to inherit a government that can 
actually do the things that Senator Hassan actually mentioned.
    Today, so much of the mission of providing for the common 
defense, promoting the general welfare, preserving the 
blessings of liberty is tied up in bureaucracy, not because the 
history of why it was was bad, but because the current 
implementation is just--calcified. It is layers on layers.
    It absolutely is not, an answer in search of a problem. GAO 
has laid out the problems. You all have identified the 
problems. What I view as a newcomer to government is we have 
not gotten traction on the problems doing business as usual, 
and so what this approach of kind of a big, hairy, audacious 
goal, a big vision with lots of ideas was meant to showcase 
that the incrementalism of the past would not be enough. You 
all know in every past Administration in the last 40 years, 
there have been one or two major reorganization proposals. Most 
of them have not even gotten out of committee.
    Senator Jones. I appreciate that. To that point, I do not 
disagree, and no one on this Committee disagrees that we can 
always make government more efficient. But with every 
Administration, there have been some changes.
    Since World War II, we have done pretty damn good. I mean, 
we fought World War II. We fought the Korean War. We have 
survived the cold war. We have survived the Civil Rights 
movement. We have survived worker rights. We have done OK, and 
I am worried about a sledgehammer coming in that is saying, 
``Oh, everything now is calcified, and we need to bust it up.'' 
That was one thing.
    I want to ask a couple of specifics where I have just 
seen--and I have only a couple of minutes here for a couple of 
specifics. But one of the things I have seen in this report is 
the ultimate goal of privatizing the U.S. Postal Service 
(USPS).
    Now, I got a State in Alabama that is 50 percent--more than 
50 percent--50-some-odd counties out of 67 that are very rural. 
Those counties depend on their postmen. They depend on their 
postmen every day or 5 days a week, whatever it is now, to come 
in and deliver their mail, to get their bills, and to do those 
kind of things.
    In looking at privatization, everything I have seen says 
rates will go up for rural America if we privatize the postal 
system. Have you looked at that issue for rural America in 
particular? Not just the bottom line for mail delivery as a 
whole and how much money the Postal Service may or may not be 
losing, but what is the effect on Ma and Pa Kettle out there in 
rural America that depend on their mailbox every day for their 
newspapers and their coupons and their catalogs and their bills 
and things like that?
    Ms. Weichert. I appreciate the question, and the proposal 
is a vision for really dramatically restructuring a service 
that we know already has challenges with meeting its 
obligations to employees and being economically viable and not 
a burden to taxpayers.
    The vision of universal service is absolutely something 
that we need to square, and again, this proposal is one vision, 
and it is a vision that drew heavily from examples in other 
countries where privatization took place in some cases writ 
large, but in most cases in components to ensure that 
compliance function is associated with it, universals service 
function is associated with--fairness functions associated with 
it were maintained.
    We talked a little bit earlier about the relationship 
between this proposal and the President's task force. Again, 
this proposal is a long-term vision. The task force is actually 
specifically focused on some of those operating models you just 
raised, and so it is a continuation of the same thought 
process. It feeds into that. The specific rate question, I 
would defer to the task force as they pull together the 
implementation plans, which I understand are coming together 
and will be presented in August.
    Senator Jones. Have you considered--and this is a quick 
question, Mr. Chairman, if you will indulge me. Have you 
considered even the potential antitrust implications of trying 
to sell off the postal system for the entire United States of 
America?
    Ms. Weichert. This would be an area--when you get to the 
actual operating model and the specifics, that would be the 
appropriate time to consider that.
    Senator Jones. All right.
    Thank you, Mr. Chairman. I look forward to other hearings 
on this matter. Thank you.
    Chairman Johnson. Senator Carper.
    Senator Carper. Let me pass for this for just a moment, and 
I can maybe come in next. Thank you.
    Chairman Johnson. Sure. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member, thank you for having this hearing.
    Ms. Weichert, it is great to have you here before us.
    I want to reiterate something the Ranking Member mentioned 
is that I--and to you, Mr. Chairman. I do not believe we have 
been partisan here today. Ms. Weichert, hopefully you have not 
seen partisanship. What you have seen is a Committee, though, 
that is very focused on nuts and bolts. I think that is why all 
of us were attracted to serve on this Committee. That is why I 
wanted to be on this Committee is that I want to work to reform 
government, make it more efficient, but also really get into 
the weeds. This is an in-the-weeds type of committee. This is 
not a philosophical committee. Even though I have a philosophy 
degree, this is not a philosophy committee. This is a nuts and 
bolts committee; that is, about trying to figure out how we do 
things differently and how we do them more efficiently.
    I get the fact that this is a visionary document that we 
are looking at, but we are going to want to get into those 
kinds of weeds.
    I think if you look at some of the problems that we have 
with duplication right now--in fact, I am working on 
legislation in a bipartisan way with Senator Gardner to figure 
out how we can get rid of multiple organizations that are 
involved in regulatory oversight.
    An example I use, we have multiple government agencies that 
oversee catfish.
    Ms. Weichert. Yes.
    Senator Peters. I do not think we need that. I want them to 
have one agency----
    Ms. Weichert. We agree.
    Senator Peters [continuing]. To make sure that catfish is 
safe when I eat it or ship it, but you do not need multiple 
agencies.
    But some of those problems are as a result of Congress 
because Congress has jurisdiction, and every committee has 
jurisdiction over certain agencies. They are not going to give 
up those agencies. We have to be part of that process as well.
    But we want to work closely with you to figure out how we 
get to that 21st Century. I am going to ask you some questions 
about that in a minute.
    Ms. Weichert. Sure.
    Senator Peters. But first off, to kind of get into the 
weeds of the 10 to 12 or the ones that you are going to put 
forward that do not require congressional involvement, you said 
you are in the process of looking at those. Give us some 
transparency as to exactly what is the process, what will be 
the determining factors as to which one or all of those 12 will 
be put forward shortly, and will there be complete transparency 
as to what factors were used, what criteria were used in order 
to come to that list? You have mentioned the data will be 
provided at that time, but it is not just the data. I want to 
know how you have actually used that data to inform some sort 
of metric to determine that those are going to be the reforms 
you put forward. Please enlighten us.
    Ms. Weichert. Sure.
    For the proposals that do not require a change to 
authorities or funding, what we are doing now is we are working 
with the affected agencies, and we are working to determine 
what the operating model would be for moving that forward.
    I talked about the background investigation process. That 
on its own is a meaty piece of work, and on that one, we have a 
body called the PAC that includes the Director of National 
Intelligence. It includes the DepSec for DOD. It includes the 
Director of OPM. It includes myself and a representative from 
the National Security Council (NSC). We are working through 
those issues as we speak.
    Department of Defense is actually working on standing up 
the components, and together, we are working to bring those 
components so that we can address the civilian component as 
well as the DOD background investigations because, as I said 
before, trying to rip them apart while you are also 
transferring 70 percent is going to put the whole enterprise at 
risk. That is an example of one type of analysis.
    Another type of analysis, the GEAR Center, which again it 
is one of my personal favorites, but it is actually looking at 
a place where we can have public dialogue that is informed by 
evidence, that is informed by leading thinking from academics 
in the private sector, and we are putting out a request for 
information (RFI) in the coming weeks that is asking for more 
information from the public about how we might stand that up. 
That will be a public request for information that is going 
out.
    Customer service. My team is looking at how we might 
actually integrate some of that and build on things that the 
U.S. Digital Service is doing.
    Each one of these proposals has kind of a slightly 
different track, but the other thing, to your broader question 
how does this all come together, 10 to 12 in and of itself, 
although they are not as large or as high profile as the things 
that need congressional activity, that is a lot of change. We 
do not have unlimited resources to manage change appropriately. 
The other activity that is not pure science is the art of what 
comes first and the art of staging, and that is something that 
in every change activity I have been in, it is informed by 
data. It is informed by a combination of you want to put some 
things that are hard but important and need to get started now 
with some things that are easier to achieve.
    You cannot do all the hard things at the same time. We do 
not have the resources for that.
    I apologize that I do not have perfect information to give 
you here, because it is part of a process, but rather than 
stonewalling or sledgehammering--like this thing right here, 
the Constitution, creates this creative tension that ensures 
that our drive for efficiency or our drive for action in the 
executive is tempered by your representation of the needs of 
the broader government.
    Senator Peters. To hear that process, I assume this will be 
fully transparent as it actually works itself through?
    Ms. Weichert. Yes.
    Senator Peters. This will not be a black box? You are 
willing to talk to us even if we do not have a chance to have a 
hearing?
    Ms. Weichert. Yes.
    Senator Peters. Hopefully, we will, Mr. Chairman, have a 
hearing on those specifics. That you will be fully transparent 
to Members of this Committee, answer our questions? You 
mentioned that in your hearing for your nomination that you 
would be fully transparent----
    Ms. Weichert. Yes.
    Senator Peters [continuing]. Provide all that data? I have 
your commitment that as this process goes forward, you will do 
that?
    Ms. Weichert. So again----
    Senator Peters. And we can call you out if you do not. How 
is that?
    Ms. Weichert. The key thing is I need to not create new 
processes while we are trying to reform government that has 
plenty of processes today. As much as possible, we are trying 
to leverage the processes that exist, and it is my bias to be 
as open and transparent as possible. I think the challenge----
    Senator Peters. Well, it cannot just be your bias. It will 
be this Administration. You will deliver that to us?
    Ms. Weichert. I will do my best to be appropriately 
transparent.
    Senator Peters. How do you define appropriate?
    Ms. Weichert. There is a general counsel (GC) that helps me 
with that. I am not just a private citizen here with my own 
desires. I am part of an institution, and so I have a motivated 
desire, as I have shared, to share the information that will 
make the change possible.
    I need to be cognizant that I am part of an institution, a 
branch of government that has its historical precedent and has 
process.
    My project, the business of government that we are involved 
in is much larger than the work that I am doing. Process has 
its point, and I have puts and takes on everything that I do.
    Senator Peters. One reason why a lot of this reform has not 
happened in the past--and we hear it--is because of process. 
The process gets in the way.
    Ms. Weichert. Yes.
    Senator Peters. I would hope that you would also be very 
active in coming to us. If there is a process----
    Ms. Weichert. Yes.
    Senator Peters [continuing]. If someone is telling you, you 
cannot give Congress this information, will you be transparent 
at least to tell us that you are being told that you cannot 
give this information to us? Because we have to stop letting 
the process get in the way of meaningful reform, but make sure 
that that meaningful reform is actually based on objective 
data; it is actually based on information that is quantifiable 
that would be used in a corporate boardroom to make decisions, 
not based on ideology done in a black box. That is what the 
American people deserve. That is what this Committee hopes that 
we will deliver, but we need your help to do that. You need to 
be transparent and let us know where the process is getting in 
the way of us doing our job, which is to be the oversight 
committee for this reorganization.
    Ms. Weichert. Yes. I appreciate that, and one of the 
leading business thinkers I quote a lot is a guy named Stephen 
Covey, who basically says, ``If I cannot start with myself when 
change is happening, that I am not as well set up for 
success.'' My team knows that I am constantly pushing to ask 
why cannot we, how might we, what could we do.
    Again, I am one person who I believe is in a position, a 
unique position right now to be able to take advantage of a 
spirit of change, a desire for real action, and I am in a great 
institution that has been here much longer than me. I have to 
balance those ideas.
    Senator Peters. Thank you.
    Chairman Johnson. I would point out that a corporate 
boardroom does not get the transcript of every conversation 
that took place between the people that developed the proposal, 
every email, every text. What they get is the proposal. They 
can get the work product with all the data backing up to the 
proposal, and that is what I expect to get is the rationale 
once the proposal is actually developed.
    I am not expecting the product from the deliberative 
process. I am looking for the final product, the results from 
that deliberative process.
    Senator Carper, are you ready?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Yes.
    Ms. Weichert, very nice to see you. Thank you for joining 
us today and for your leadership. Thank you for taking on a 
tough job and presenting what your findings are and 
recommendations are today.
    When we fell into the Great Recession back in 2009, our 
budget deficit ballooned to, as you may recall, about $1.4 
trillion, the largest since really World War II.
    In the years following that, the deficit has trended down 
and reached about $400 billion, maybe 5 or 6 years later. Still 
too much, but better than $1.4 trillion.
    We are told by CBO now that the budget deficit has begun 
trending up, and we are looking at a deficit next year of a 
trillion dollars or more, and some people just say, ``Well, ho 
hum, it is business as usual.'' It cannot be business as usual, 
and we have to look at everything we do and ask if that is the 
right, smart way to do it. We have to look at our revenues. We 
have to look at our spending. This is an important undertaking.
    This is, as you know, not the first time we have taken a 
look at the way we structure our government, and my approach to 
doing this as the former Chairman of this Committee would be to 
ask a lot of folks this question: What do you think? That 
includes Federal employees, and I do not know to what extent 
you have asked that question. But that is the way I ask all 
kinds of people: What do you think? People like to be included. 
Frankly, a lot of times, they have good ideas that would inform 
what we are working on.
    In previous Administrations, including the last 
Administration, maybe the one before that, work was done--I 
know in the Clinton administration--with respect to 
reorganizing government. Among the people I would ask, ``Well, 
what do you think?'' are people who led those initiatives, and 
maybe you have done that.
    Ms. Weichert. Yes.
    Senator Carper. If not, that would be helpful, I think, to 
you and certainly to us.
    Senator Collins and I got involved in postal reform about 
10 years or so ago and to try to put the Postal Service on 
sound footing, and everything was fine until we fell in the 
Great Recession. Then all kinds of businesses and people, but 
especially businesses decided to get out of the mail and to 
move lock, stock, and barrel to the Internet. As a result, 
First-Class Mail was dramatically reduced.
    The Internet taketh away but also giveth back, and it has 
given the Postal Service a new line of business, which is 
packages and parcels really on steroids, which is a good thing.
    I used to be State Treasurer of Delaware. I was State 
Treasurer of Delaware when we had the worst credit rating in 
the country. I became State Treasurer at the end of 1976. Pete 
du Pont became our Governor, turned out to be a very good 
Governor, and we had the worst credit rating in the country. 
And for a 20-year march from the worst credit rating in the 
country to the end of 1999, sometime in 1999, my last year--
2000, my last year as Governor, we earned AAA credit ratings.
    And I will never forget meeting with the folks from Fitch, 
S&P, and Moody's, and they said to us, ``You you have made 
great progress over 20 years in Delaware, but you still have 
one big liability you have not addressed.'' We said, ``Well, 
what is that?'' They said, ``You have a lot of retirees, and 
you have fully funded a pension system for the State, but you 
have not done anything to fund health care benefits for your 
State retirees,'' and they said, ``You need to do something 
about that.''
    We looked around. We saw, well, nobody else is doing that. 
Businesses do not do that. States do not do that. They said, 
``It does not matter. You should do that.''
    We began setting aside some money. We still set aside some 
money every year to fund the health care benefits of State 
employees. Some other States do this as well.
    I have asked my staff to look at Fortune 100 companies: How 
many of them actually fund the health care benefits for their 
pensioners? Almost nobody. How many of the Fortune 500 fully 
fund the health care benefits for their pensioners? Almost 
nobody. Fortune 1000? Almost nobody.
    What we had to agree to do to with George W. Bush's 
administration was to actually have a deal on postal reform in 
2007 to fully fund, do something we do not ask any other 
company or government in the country to do, and that is to 
fully fund over relatively a few years the health care 
liability for their pensioners. I always like to say the 
government should act more like a business. In some cases, we 
should.
    Well, if we are going to ask the Postal Service to act more 
like a business in this case, we would not be asking to put any 
money aside for their health care liabilities. That is the 800-
pound gorilla in the room in terms of the postal viability, and 
sometimes we take our eyes off of that.
    I have worked on this for years. Susan has. Senator Jerry 
Moran, Senator Roy Blunt, and the Ranking Member have worked on 
it. Senator Heitkamp. We have asked a lot of questions: What do 
you think we should do?
    If I were in your shoes, if I were in the shoes of 
Secretary Mnuchin who is heading up this postal reform task 
force, I would have asked to meet with us and say, ``Well, what 
do you think?'' To my knowledge, we have had no such request.
    If we are going to do anything on postal reform, you are 
going to need our cooperation, and I am not telling you how to 
do your job, but take advantage of that opportunity.
    I understand the folks who worked on this particular issue 
within this task force are now part of the team that Secretary 
Mnuchin is leading. They have sort of gone from working on this 
endeavor to going over and working in the Mnuchin-led task 
force. It sounds to me like this could be pre-baked, but I hope 
not. I hope not because this is one we can fix. This is one we 
can fix, and my hope is we will do that.
    Let me ask one question. Sorry to go on so long about the 
Postal Service. My wife asked me when I die, what would I like 
to have put on my tombstone, and I have said I would like for 
it to say ``Return to Sender.'' That sort of explains my 
affection for the Postal Service. [Laughter.]
    It takes a while to get that.
    Chairman Johnson. I guess that should be granted.
    Senator Carper. Hopefully, that will not be too soon.
    Real quick on the Army Corps of Engineers. Obviously, with 
any change, one needs to start by identifying the problem to be 
solved, and one or two specific concerns regarding the Army 
Corps of Engineers current structure that the President's plan 
is intended to fix, and how does that plan address those 
issues, please?
    Ms. Weichert. OK. The Army Corps proposal essentially looks 
at the fact that particularly for our rivers and inland 
waterways, there are multiple agencies involved in all of the 
mission areas, and they are diverse mission areas, everything 
from protecting endangered species to managing locks, managing 
ports, and managing flood protection. There is a lot of 
overlap, but more importantly, there is a lot of fragmentation 
that creates challenges when people are actually trying to make 
a decision or actually get something done.
    The main changes there were--first of all, only 22 percent 
of the whole mission is civilian. Something in the Army where 
the Army has a much bigger mission about warfighting, it is 
potentially going to get neglected in the broader area where 
there are important missions. Particularly with flooding and a 
lot of other issues we have seen, we want better management 
around that and to streamline that process and to make it 
easier to get things done appropriately and also not have 
conflicting decisions around, Director Mulvaney did the fish in 
the river. It is a funny story, but literally because there are 
different species and there are so many people involved and the 
Army Corps sits in the middle of all of that, we might make 
different decisions about how much water is let out of a dam 
and that could have impacts for that.
    There are environmental issues. There are flood control 
issues. There are permitting issues, and then there is the 
overall focus and attention.
    Senator Carper. All right. Thanks. Thanks so much. I have 
some more questions for the record, and, Mr. Chairman, thank 
you for letting me go on.
    I would just say on postal, I am not going to suggest this 
liability to health care, liability of pensioners should be 
ignored. It should not be, but we should not just hold out the 
Postal Service as the poster child to do something----
    Ms. Weichert. Right.
    Senator Carper [continuing]. That we are not asking for 
other companies or other government agencies.
    Thank you so much. We look forward to working with you on 
these. Thank you.
    Chairman Johnson. First of all, the ``Return to Sender'' 
comment was well worth your questioning time.
    I will say I have met with the task force, and I have been 
keeping up with it. My sense is they really are trying to do 
that. First up in problem-solving process was develop the 
information, which I have been trying to develop. It is like 
pulling teeth to a certain extent. It sounds like they have a 
pretty competent team to develop that baseline of information 
we need to actually develop some kind of proposal, so I am 
hoping that is the direction they are going.
    Senator McCaskill is on a timeframe. She wanted to ask a 
question or two real quick, if that is----
    Senator McCaskill. I did not want to have to leave the 
hearing without looping around with you.
    You have an opportunity, and I certainly cannot say 
strongly enough how much I want to go forward in a bipartisan 
basis to make changes that make sense. If the attitude--what it 
feels like it has been so far--is we are going to closely hold 
information until we get far enough along in the process that 
they cannot dive in too far to figure out how we got here--and 
ultimately, the data you give us is going to be what you choose 
to give us, and the worst thing in terms of efficiencies is to 
have lawsuits over executive power.
    Ms. Weichert. Yes.
    Senator McCaskill. That is not efficient.
    Ms. Weichert. Yes.
    Senator McCaskill. If there are some bold moves made within 
the Executive Branch without legislative buy-in, you are not 
going to get efficiencies.
    Ms. Weichert. Right.
    Senator McCaskill. You are going to get a food fight.
    Ms. Weichert. Yes.
    Senator McCaskill. I just want to stress to you, trust us 
if you want us to trust you.
    Ms. Weichert. Yes.
    Senator McCaskill. If you will deal with us in good faith 
and not stonewall us on a basic question, ``Give us the number 
of proposals you think need legislative action,'' that is not a 
high bar for information.
    Ms. Weichert. Thirty.
    Senator McCaskill. OK. I need to know which 30 they are. So 
far, you all have refused to give my staff that information.
    I do not know where your staff is getting their marching 
orders, but the fact that your staff has refused to tell us 
which 30 proposals you think need legislative action and what 
that is, that breeds distrust, which is the antidote to good 
bipartisan work that we can do here.
    If you will begin to share and not stonewall, I think you 
might be pleasantly surprised how cooperative many of us are. 
You are not going to get 85 votes, but I damn well bet you, you 
could get to 60. If you want to do that--because other 
administrations, this will be marked as an F and will go in the 
dust bin of history if you do not get the trust and cooperation 
of Democrats that want the same goal as you want. And I am one 
of them.
    Ms. Weichert. Yes.
    Senator McCaskill. Give me a chance to work with you before 
you put up the wall and say we are not ready to tell you 
anything.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    The Administration released a set of three Executive Orders 
that seem to be aimed at weakening the unions that represent 
Federal workers, and then coupled with the Administration's 
reorganization proposal, these actions frankly seem to be 
targeted at dedicated public servants and I think have the 
potential to really harm the American public in terms of the 
quality of service the American public will receive as a result 
of that. I am concerned about these Executive Orders.
    My question for you is, Do the agencies have discretion to 
deviate from the mandates that are contained in the three 
Executive Orders that are affecting Federal employees?
    Ms. Weichert. The Executive Orders were designed to really 
get back to the merit system principles that are set out 
guiding our overall civil service structure and in total we are 
really looking at how do we preserve that.
    I think the agencies have been given guidance around some 
of these components. I think additional guidance is 
forthcoming, and I think that will be available.
    Senator Harris. Is that guidance going to direct that the 
agencies have discretion to deviate from the mandates that are 
contained in the Executive Orders?
    Ms. Weichert. Each Cabinet official is going to obviously 
take--or agency head is going to take the guidance that they 
were given and interpret it and comply with it as it fits in 
their purview.
    Senator Harris. There is no standard for all agencies? Each 
agency head can do as she or he wills as it relates to an 
interpretation of an Executive Order?
    Ms. Weichert. Based on the guidance that they are given.
    Senator Harris. Are they going to be guided that they have 
discretion to deviate from the mandate?
    Ms. Weichert. I would like the guidance to speak for 
itself. If there is a specific concern you have, I would be 
happy to take that back.
    Senator Harris. Yes. The concern would be as it relates to 
Federal employees and specifically with regard to the Executive 
Order on official time, and my concern is whether the agencies 
have discretion to negotiate to allow more than 25 percent of 
an employee's time in a calendar year to be used for official 
time. As you are aware, official time is used for things like 
helping the employees report fraud and waste. It helps them 
pursue whatever may be a concern about sexual harassment in the 
workplace. Things of that nature are the issues that are 
addressed when official time is being used.
    Ms. Weichert. Yes. On official time, the notion was that 
there were people spending up to 100 percent of their time, 
including things like nurses and doctors at the U.S. Department 
of Veterans Affairs (VA) on official times are being paid for 
by American taxpayers but not serving the direct mission of 
what the taxpayers are paying for, and so the guidance around 
official time is the 25 percent number.
    Senator Harris. But would not you agree that good public 
policy is not crafted around the abuses? We will address the 
abuses when they occur. Good public policy should be addressed 
at improving efficiency and effectiveness, and certainly, we 
know the use of official time is effective use of time to 
address workplace issues and particularly those issues that may 
harm or affect employees in the work force.
    Ms. Weichert. Yes. Absolutely, when we are talking about 
protecting against waste, fraud, and abuse and whistleblower 
activities--I am actually the executive chair of the CIGIE.
    Senator Harris. Well, that is carved out, the whistleblower 
piece, right?
    Ms. Weichert. Right.
    Senator Harris. This is about everything else.
    Ms. Weichert. Correct. Much of your concern, I think, at 
its root is concern about that waste, fraud, and abuse 
component, and that is carved out. The guidance does address 
that.
    Senator Harris. What about sexual harassment?
    Ms. Weichert. I think it is a critical issue, and I cannot 
speak explicitly to that point in the guidance, but I would be 
happy to look at it and----
    Senator Harris. Please do and follow up.
    Ms. Weichert. Sure.
    Senator Harris. Thank you.
    Do the agencies have discretion to negotiate to allow union 
officials to use official time to handle grievances that are 
filed by the union rather than for the employee to request the 
official time?
    Senator Harris. Again, I do not want to give you the wrong 
answer, so I would want to get back to you on that.
    Senator Harris. OK.
    How many employees do you believe and expect will be 
removed under this reorganization plan?
    Ms. Weichert. Although the initial conversation and the 
initial Executive Order had a flavor around reduction in force, 
when we actually did the analysis--and I have shared some of 
this data publicly--the issue we have in government is not that 
we have too many Federal employees. The issue is that we 
actually have a mass of Federal employees set to retire within 
the next 10 years. We actually have a challenge of having the 
right number of Federal employees in the right tasks, and so a 
lot of what we focused on since I have gotten involved is how 
do we get the right people to the right task. There are no 
specific reductions in force envisioned in this proposal.
    There may be some dislocation areas where either there is a 
skill gap challenge or some other mismatch between the future 
State and the current State, but in general, the goal is not 
reductions in force.
    Senator Harris. Is your representation to this Committee 
that there will be no Federal employees removed from their 
employment with the Federal Government pursuant to this 
reorganization plan?
    Ms. Weichert. That is not my representation.
    Senator Harris. What is your statement on that? How many 
will be removed?
    Ms. Weichert. I do not know the answer to that. It would 
come in dislocation, but the goal is not to remove employees. 
The goal is actually--and we have made a request to Congress 
for a billion dollars in a reskilling, retention, and 
recruitment activity to ensure we have the right skills 
mismatch.
    To the extent there is any dislocation, it would relate to 
the skills being a match for the mission.
    Senator Harris. OK. I only have a few seconds left.
    You said earlier that there will be 10 to 12 agencies in 
terms of the workforce changes, but you did not say which of 
those you are moving forward with. Can you tell me which 
agencies are we talking about in regard to the reorganization 
plan and those that can be done without congressional approval? 
Which are the 10 to 12 agencies?
    Ms. Weichert. It is not 10 to 12 agencies. It is 10 to 12 
proposals, and many of the proposals, like the background 
investigation proposals, affect multiple agencies.
    As I shared a fair bit, we will have more information for 
that toward the end of this summer.
    Senator Harris. I have this document, and then each 
proposal has a number next to it. Can you tell me which ones, 
according to the numbers that have been assigned to each 
proposal, can be done from your opinion without congressional 
approval?
    Ms. Weichert. Again, I shared some examples, the challenge 
I had mentioned earlier around providing lists when we still 
have not done the assessment of which things are we ready to 
move on. We are looking at 10 to 12 things. I shared the 
background investigation component, the cyber workforce 
component, the customer experience, and the GEAR Center.
    Senator Harris. Yes. If I may interrupt you, but you may 
not be prepared to move forward on it. But that is a separate 
point from whether you think you can move forward on your own 
or whether you require a congressional approval.
    My question is on that latter point. Which one of these 
proposals do you believe, when you are ready, you would be able 
to proceed without congressional approval?
    Ms. Weichert. Again, what I shared earlier is that--and I 
also shared it in the committee with the House last month--is 
we are spending this summer doing that final analysis, and so 
there are 10 to 12 that we are looking at right now. We are 
making the final definitive assessment, because as you could 
imagine, our counsel wants to look in and make sure that our 
initial hypothesis is valid.
    In the end, it might not be 10 to 12. It might be eight. I 
cannot definitively tell you that because we want to be 
thoughtful. We want to be prudent about actually doing that 
analysis and running that through a legal process as well as an 
analytical one.
    Senator Harris. I think that would be a smart thing to do. 
Thank you.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    Ms. Weichert, the plan proposes to move the Army Corps of 
Engineers, civil works, out of the DOD. The commercial 
navigation function would go to the DOT, and the flood control 
functions would go to the Department of Interior (DOI).
    Are you going to continue to use uniformed military 
officers for those functions, or then would that all be done by 
civilians?
    Ms. Weichert. The details of that would be one of the 
things we would want to work out.
    I think one of the things that we all acknowledge is that 
the leadership development discipline that the Army has brought 
to the Army Corps of Engineers is one of the things that is 
exceedingly good about the Corps. The challenge is that because 
only 22 percent of their resources are spent on civilian works, 
it is not necessarily the highest priority for the military. I 
think that particular question would be one of the things we 
would want to have a discussion about.
    Senator Hoeven. That is a pretty massive change. Is that 
the kind of change you are talking about making 
administratively rather than via legislation?
    Ms. Weichert. Absolutely not. No. This is one that would 
require congressional involvement.
    Senator Hoeven. This is something where you are doing an 
analysis on whether these functions could be done better by 
moving them to civilian----
    Ms. Weichert. The vision again was this was one of the top-
down proposals, and it reflects a lot of feedback that we got 
about challenges, both to a range of missions, whether they 
were environmental missions, flood control missions, or 
transportation project missions. There is a lot of research 
that has been done, and I believe this Committee may have even 
looked at issues around permitting and some of the challenges 
there.
    The root causes of this proposals are varied and myriad, 
but this was fundamentally a top-down proposal to say 
Department of Interior is doing a lot in certain areas of the 
mission, Transportation is doing a lot in certain areas. The 
functions sitting in the Department of Defense are perhaps not 
getting the full attention that we would want to dedicate to 
those civilian missions.
    Senator Hoeven. Your proposal also includes a section 
titled Solving the Federal Cybersecurity Workforce Shortage, 
details How the Federal Government struggles to recruit and 
retain cybersecurity professionals.
    Senator Peters and I have introduced legislation, the 
Federal Cyber Rotational Program Act, and it is a rotational 
program for employees with cyber designations similar to the 
joint duty programs that the military has now.
    My question is, Do you support that kind of rotational 
program for Federal civilian cyber employees, and are you open 
to it? Do you think it has benefits, and are you willing to 
work with us on it?
    Ms. Weichert. Absolutely willing to work with you on it. I 
think it is well aligned. I am not deeply familiar enough to be 
able to weigh in on any particulars, but what I can say and 
what I know about it at the highest level is it feels very much 
aligned. In fact, the proposal we actually envisioned, although 
there are things we can do without legislative action that we 
have outlined in the proposal, that we would want to actually 
think organizationally about how would we take into account 
things that this body and yourselves have proposed as well as 
some ideas that have come up in the House.
    Senator Hoeven. In the realm of small business--and small 
businesses make up 96 percent of the businesses in our State 
and obviously are really the backbone of our economy nationally 
and create most of the jobs--you have a pretty big 
reorganization plan for small business programs in general. It 
affects Department of Agricultural, Transportation, Treasury, 
Veterans Affairs, and it looks like you are essentially taking 
all the programs relating to small business from all these 
different agencies and saying, OK, we are going to put them 
under the Small Business Administration (SBA).
    Now, I have always been a big fan of the SBA. I think they 
do a great job and appreciate what they do very much, but now, 
if we are going to take all these programs, put them into SBA, 
I mean, are we going to get into this, Federal one-size-fits-
all bureaucracy, which, of course, is my fear? Being a former 
Governor, I think the more you can let States do, the better 
off we are because they can respond to the needs in their 
State, and those needs differ across the country.
    When we get these big monolithic Federal agencies, pretty 
soon they are making the customer fit their program and their 
regulations and their bureaucracy rather than making those 
programs fit the customer, that small business out there that 
is trying to get something done.
    It is one thing for these giant corporations, with all 
their resources and attorneys and everything else to fight 
their way through that bureaucratic blizzard, but it is darn 
tough for a small businesses.
    Ms. Weichert. Right.
    Senator Hoeven. As you make this change, are you really 
empowering these small business programs, or are you going to 
turn it into a big old bureaucracy where you cannot even find 
somebody that is supposed to help you, let alone actually get 
the help?
    Ms. Weichert. I think it is a great question, and I have 
started to----
    Senator Hoeven. You can kind of sense where I am going with 
it.
    Ms. Weichert. No, absolutely. I have started three small 
businesses, and I have a deep affinity for this subject.
    This proposal actually was one that started with the 
service element: How do we serve small businesses, and how do 
we keep them from having to run hither and yon to get stuff 
done? That is actually one of the things we as a country do 
pretty well.
    When I think about the appropriate analogy from the private 
sector, I ran strategy, innovation, and business development, 
as well as analytics, for Bank of America's e-commerce, ATM, 
and mobile channels. We had service to our customers--and it 
included small business--that included product areas that were 
delivered by all kinds of parts of the Bank, but we delivered 
them in an integrated way.
    Did all the piece parts move in order to do that? 
Absolutely not. This proposal, I think, is another one where a 
good robust dialogue with Congress about how do we make this 
happen so that it really does cut through the red tape for the 
small businesses and make that transparent to the small 
business. Some of the functions might actually move if we think 
there are real efficiencies. Some of it may simply be a way of 
conceiving and advocating for that small business to say does 
this end-to-end make sense.
    Small businesses in your State, do they have a high overlap 
between agriculture activities and commerce activities today? 
What is the best way to bring that together? At this point, I 
cannot definitively say that. You may have the better idea 
about that, but that, I think, would be a great substantive 
discussion rather than the goal being creating some behemoth 
organization.
    Senator Hoeven. Yes. I think if you can achieve that, where 
you reduce the red tape, the bureaucracy, and really empower 
those programs to serve the customer based on the customer 
circumstances, the small business out there, rather than trying 
to make them conform to some big one-size-fits-all model, then 
that is the kind of thing that could be of benefit. But you 
have to be careful as you do this to make sure you are 
achieving that.
    Ms. Weichert. Right. Because a small business farmer, a 
small business high-tech company, and a hair dresser may have 
very different needs in terms of how they interact with 
government. To your point, we have to be careful we do not want 
to lose sight of what we are really trying to do.
    Senator Hoeven. Well, that is it. I mean, right now our 
farmers produce the highest-quality, lowest-cost food supply in 
the world that benefits every single American, every single 
day. We cannot take some of those things for granted as we make 
these changes, and that is just one area.
    But Department of Agriculture, at least they are focused on 
the farmer. If some agriculture business now has to go into 
some big bureaucracy that does not know squat about agriculture 
or rural America, it could be counterproductive.
    Ms. Weichert. Yes. I think that is critical, and actually, 
when I was in Kansas City, I met with a bunch of farmers. One 
of their biggest criticisms of government was ``I am a 
business. I am an LLC. I am not an individual, and everything 
that I go to do with USDA treats me like an individual, but I 
am an LLC. I am a multigenerational family business. I need to 
be treated like a business.'' That really stuck with me.
    Senator Hoeven. OK. Thank you.
    Chairman Johnson. Those are exactly the kind of questions 
we will be asking once you have these proposals fleshed out.
    Ms. Weichert. Right.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman. Thanks for holding 
this hearing today.
    Like the Chairman, I went directly from the private sector 
to Congress; like the Chairman, I spent decades in the private 
sector.
    I want to applaud the Trump administration for initiating 
this effort here of how do we eliminate the duplication and 
redundancy in the Federal Government, how do we improve 
efficiency, effectiveness, and accountability.
    Can you imagine if we had James Madison and Thomas 
Jefferson at this witness table here today and asked them, ``So 
take a look at what is going on in the Federal Government, and 
what do you think? Is it panning out like you thought it would 
with this vision of limited government?'' as they put forward 
this amazing vision, this American experiment, this American 
idea? I think they would be shocked at what they see, and I 
want to thank you for tackling the swamp and the efforts that 
you are doing here to reorganize and reform the way the Federal 
Government operates today.
    I think back to the countless conversations I have had with 
Montanans as I travel around our State. I get to all 56 
counties, every congressional period, every 2 years. They 
overwhelmingly agree that the Federal Government is broken. It 
makes their lives more complicated. The government has 
forgotten who the customer is in the transaction, and the 
reason for that is there is no competition.
    Having spent time in the private sector, as you have, Ms. 
Weichert, you know that the reason you get better is because of 
competitive forces. You have to keep delivering better value 
and a better customer experience, or else your customer goes 
somewhere else. But when you have a captive audience like the 
Federal Government does, where are the incentives to do that? I 
am convinced that most often, these bureaucracies, when they 
wake up every morning, they are more focused on serving the 
bureaucracy and how do you keep the status quo than changing 
things to better serve the customer, so thank you. I think this 
is the President once again making good on promises he made to 
the American people and why he is the President.
    Healthy organizations embrace change. Healthy organizations 
adapt to better meet the needs of their customers. That is the 
nature of reform that you see in the private sector, but here 
in Washington, DC, just listening to this dialogue between 
members of the Senate and yourself, it seems that President 
Trump's opponents would rather quash any real reform discussion 
and seek to preserve the status quo. I think they have 
forgotten who the customer is, and if I need to remind 
everybody again, the customer is the taxpayer of the United 
States of America.
    Ms. Weichert, as it stands now, you have estimated the 
transformation is going to last between 3 to 5 years. I think 
that is a realistic assessment. Should these discussions stall 
on Capitol Hill, what aspects of the proposal are most at risk?
    Ms. Weichert. I think the biggest elements of the proposal 
that are at risk are the ones that frankly are the result of 
our top-down analysis and synthesis of the GAO reports. The 
biggest issues are also some of the strengths of--what is set 
out in the Constitution is this natural tension. Corporations 
have a very strong executive that can make even the language 
executive decisionmaking. Our democracy was not designed that 
way. It was not designed for efficiency. Some of these hard 
overlapping areas where you have big dueling bureaucracies and 
particularly if they are in different jurisdictions, I think 
those are some of the biggest challenges, and that is frankly 
why we want to have this process be open and not just jump 
precipitously into those things that need congressional help.
    Part of what for me this process is about and why even the 
conversation here is useful is to get a sense of what might we 
do together because I think that is the place the American 
people will absolutely be livid if we do not move forward.
    In the President's Management Agenda, we started out 
talking about trust in government, and that is not an Article 
I, Article II combat issue. The trust problem is about all of 
us, and the American people do not trust us. The trust has been 
declining because we cannot get our act together.
    My hope is that collectively we can--whether it is small 
businesses, whether it is mission around our inland waterways, 
whether it is our mission around cybersecurity, if we can get 
traction on a handful of proposals--and that is part of why we 
have broken it out the way we have, unlike how it has been 
characterized, we are not trying to stonewall. We are trying to 
actually line up change that can happen.
    I love that you referenced Montana and what happens at the 
State level in the context of competition because State 
governments know that people can move across State lines. They 
do it all the time, and if a State Governor does not get his 
act together or her act together, people leave. Businesses 
leave.
    Senator Daines. And they are right now too.
    Ms. Weichert. Right.
    Senator Daines. We can see it across our country. They are 
leaving States that tend to have higher taxes, more regulation 
than other States.
    Ms. Weichert. Right.
    There is a lot to learn, and I actually indicated my 
interest in learning more from what has happened at the State 
and local level.
    Senator Daines. I think that federalism vision is a good 
one on that, to decentralize this behemoth here in Washington, 
DC.
    I want to jump in, while my time remains, on a specific, 
and Senator Hoeven touched on this a bit. I was pleased to see 
this idea of consolidating the background investigations from 
OPM to DOD. My understanding is last year OPM backlog exceeded 
700,000 investigations with no end in sight. It prevents the 
military from filling positions that are critical to national 
security, and it seems to me on the surface that shifting the 
responsibility to DOD seems like it is probably a prudent 
decision.
    I agree with you, and I have been involved in reform 
efforts in larger businesses. You set a bold vision going 
forward, but then you have to start eating that elephant one 
bite at a time. You cannot go off and boil the ocean. It is 
going to have to get some wins in some important areas. This 
could be one of them.
    Ms. Weichert, could you provide an update on OPM's current 
investigation backlog and how what you have proposed might help 
resolve this perennial problem? Because when you have this 
backlog in background checks, you have outstanding, qualified 
people ready to fill a position, but because the background 
check is taking far too long, the best people leave and go find 
different work because they cannot stand there waiting for 
this. The folks you have left sometimes are not your top 
performers.
    Ms. Weichert. Yes. I appreciate that question, and you are 
precisely right. The urgency around this proposal is it is 
critical to what we laid out in the President's Management 
Agenda. We cannot do the mission if we do not have the right 
people with the right skills, and getting people in, 
particularly the best people do not wait a year.
    In terms of the specific number, the last number I heard 
was 700,000. I do not have an updated number. We could 
certainly get back to you and provide an answer for the record.
    But the goal of this activity is to, again, shine a light 
on this, keep the function together, because there is really 
critical talent that does that, but we also at the same time 
have to look at the nature of the work changing.
    As the skills in government become more about judgment and 
orientation as opposed to clerical skills, the nature of the 
background investigations and the level of the background 
investigations is different. The mix of work is different, and 
so we need to look at what are the leading practices, including 
using information technology (IT), continuous evaluation, that 
both improve our outcomes and in terms of identifying potential 
bad actors, but also improve throughput. That is a dual 
process, and we believe that certainly the resources, the 
financial resources and the human resources (HR) will be 
brought to bear by the Department of Defense as part of this 
transition.
    But we continue to maintain in my role as Deputy Director 
for Management advocating for the whole of government. We are 
going to be looking at service levels. We are going to be 
looking at this backlog.
    Senator Daines. Yes.
    Ms. Weichert. This is something I am totally in agreement 
with.
    Senator Daines. I know it is one of your high priorities.
    I will yield back to the Chairman here.
    But thank you, too, for focusing on the customer 
experience. Many Americans, they walk into a Federal agency are 
not expecting a great customer experience, and I go back to--we 
used to require Ken Blanchard's book, ``Raving Fans,'' as a 
required reading.
    Ms. Weichert. Yes.
    Senator Daines. A short book, right? How do you move 
customers to ``wow''?
    Ms. Weichert. Yes.
    Senator Daines. Let us see if we can do that in the Federal 
Government.
    Ms. Weichert. Yes. I will take ``OK'' if we can get there.
    Senator Daines. All right. Thank you.
    Chairman Johnson. Thanks, Senator Daines.
    By the way, I think it was pretty interesting. I appreciate 
you bringing up our Founding Fathers. First of all, I think 
they would be pretty proud of the fact that we survived 242 
years. I am not sure they thought that was possible. They would 
be pretty proud that the checks that they put in place worked 
pretty well for almost two centuries.
    They would probably be disappointed that the Federal 
Government has busted out of the constraints of the enumerated 
powers. I do not think they would be surprised at all at the 
inefficiency that is a result of that.
    But I think they would be pretty encouraged by an effort 
like this that is trying to restrain it, trying to make it a 
little more efficient, more effective, and although not 
perfect, it is still working. And we still have a pretty bright 
future.
    They may be spinning in their graves right now. Hopefully, 
we can maybe reduce that spin rate a little bit in terms of 
what Ms. Weichert is trying to accomplish here.
    Senator Carper has one last question before I close it out.
    Senator Carper. Thanks, Mr. Chairman.
    One of the things we do in our office, Mr. Chairman, is--I 
succeeded Senator Bill Roth used to chair this Committee, and 
his picture is right out here in the anteroom. He had a great 
reputation. His staff had a great reputation for constituent 
service.
    When I succeeded him, I said that we were going to try to 
replicate that and maybe even ultimately do better. With 
technology, we ought to be able to do better.
    One of the things we do at the beginning of every month, we 
send out a survey to people we served the previous month. Like 
at the beginning of July, we sent out a survey for those that 
we served in June, and there used to be by snail-mail paper, 
but now it is almost entirely on the Internet. We get about a 
20 percent response rate from the folks that we query, and we 
ask them to evaluate our service, excellent, good, fair, or 
poor. The ones who do not go back and say excellent or good, we 
call them to see what we could have done better.
    The last I checked for 17 years, we are running 97 percent 
excellent or good and 2 percent, I think, fair; 1 percent, 
poor. We know we can do better. Everything we do, I do, I know 
we can do it. We are very proud of that, and we try to--and it 
is one of the things we have orientation for new Senators. It 
is one of the ideas we pass on to our new Senators that they 
might want to keep it in mind, but others probably have a 
better idea. But it is just one idea that seems to work.
    Every month when we get responses back over the Internet 
with these surveys, they say, ``Why was it excellent, good, 
fair, or poor?'' It is sort of like a reinforcement for the 
employee, for our constituents, and for the services team. It 
is usually very good reinforcement.
    Two quick questions, if I can. I do not expect in-depth 
responses, Ms. Weichert, but I do want to come back and just 
ask you to just comment briefly on how the opinions of front-
line Federal employees were considered in the drafting of this 
report.
    Ms. Weichert. Thanks for that question. Most of the 
agencies actually involved their employees in that. I think 
there is actually a good description of what Interior did that 
is coming up in a hearing in the coming days. I think 
individual agencies will share that, but we shared the public 
comments with the agencies. Then they solicited agencies, and 
did the career feedback as well.
    Senator Carper. OK. I always used to say, ``Ask your 
customer.'' You have probably done that too. Both of you have, 
but in some cases, it is good to ask your employees as well----
    Ms. Weichert. Yes.
    Senator Carper [continuing]. Because this is their life.
    Ms. Weichert. Yes. I think the Federal Employee Viewpoint 
Survey (FEVS) was also something that informed the overall 
thinking around the proposals particularly related to the 
workforce.
    Senator Carper. The second question is you mentioned 
earlier that--and I think you said in the next 10 years, some 
huge percentage of our Federal workforce is going to be 
eligible to retire. What did you say? Forty percent? Fifty 
percent?
    Ms. Weichert. It is 60 percent in the next 10 years and 
then 40 percent in the next 3 years.
    Senator Carper. OK. That sort of caused me to ask this last 
question, and that would be, How does this plan try to ensure 
that we are able to recruit and retain a world-class workforce?
    Ms. Weichert. There are a number of things in the proposal. 
The background investigation piece is part of it. The proposal 
around OPM really is designed at its core. It has gotten a lot 
of noise about the Executive Office of the President (EOP) 
specifically, but the goal was to elevate the strategic 
function, to really ensure we are recruiting, retaining, and 
reskilling employees, so we have the right skills match. That 
is something I would love further in-depth dialogue on.
    Senator Carper. All right. Thank you.
    All right. Thanks so much.
    Chairman Johnson. Thanks, Senator Carper.
    By the way, I think you raised a really interesting point. 
I am glad you asked the question about the retiring workforce. 
I do not know about you, Ms. Weichert, but in business, every 
time I faced a problem--and you are facing problems almost 
daily--the first question I always ask is ``Where is the 
opportunity here?''
    Ms. Weichert. Yes.
    Chairman Johnson. ``Where is the opportunity?'' Obviously, 
that is a huge problem. It almost begs reorganization. it 
almost begs efficiency, and so there is an opportunity there as 
well.
    Ms. Weichert, I really do appreciate the background you 
bring to this, the experience. Hard to think of a better resume 
of somebody to try and tackle this enormous problem. I think it 
is just a fact that the American people, by and large, do not 
have a real favorable opinion of the efficiency, effectiveness 
of this place.
    I appreciate the fact that this Administration, again, is 
thinking big, thinking outside the box and willing to take the 
slings and arrows as you are trying to effect change because 
people, human beings just naturally are resistant to change. I 
understand that. Not quite understanding why there was kind of 
the pushback here in terms of a sense of a lack of cooperation. 
I do not know how else you could do this.
    I truly appreciate your transparency. You have been meeting 
with members. I assume you will continue to meet with them. 
This begins the process. I want to underscore that again: This 
just begins the process. We are a long ways from the finish 
line.
    Now, maybe on individual proposals, it might be a little 
bit closer, but I expect full consultation. I would imagine 
that you also have understood the desire on the part of every 
person on this Committee of full consultation, and it is just 
in your best interest to actually accomplish what you want to 
accomplish, to provide that and to provide us the information. 
That in itself will be a more efficient way of doing this.
    I just want to thank you for your openness. I look forward 
to working with you in the future, and I just wish you--and I 
think the American public and I think the Members of this 
Committee really wish you the best to affect the kind of change 
that will make this a little more efficient, more effective, a 
little more accountable government.
    With that, the hearing record will remain open for 15 days 
until August 2 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:24 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
